<html>
<title> - MARKUP OF H.R. 5175, THE DISCLOSE ACT, DEMOCRACY IS STRENGTHENED BY CASTING LIGHT ON SPENDING IN ELECTIONS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
             MARKUP OF H.R. 5175, THE DISCLOSE ACT, DEMOCRACY IS 
                   STRENGTHENED BY CASTING LIGHT ON SPENDING 
                              IN ELECTIONS 

=======================================================================

                                MEETING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               ----------                              

             Held in Washington, DC, Thursday, May 20, 2010

                               ----------                              

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html


















  MARKUP OF H.R. 5175, THE DISCLOSE ACT, DEMOCRACY IS STRENGTHENED BY 
                 CASTING LIGHT ON SPENDING IN ELECTIONS














  MARKUP OF H.R. 5175, THE DISCLOSE ACT, DEMOCRACY IS STRENGTHENED BY 
                 CASTING LIGHT ON SPENDING IN ELECTIONS

=======================================================================

                                MEETING

                               before the
                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

             Held in Washington, DC, Thursday, May 20, 2010

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

58-150 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
















                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California,             DANIEL E. LUNGREN, California,
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    KEVIN McCARTHY, California
CHARLES A. GONZALEZ, Texas           GREGG HARPER, Mississippi
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                      Jamie Fleet, Staff Director;
               Victor Arnold-Bik, Minority Staff Director


  MARKUP OF H.R. 5175, THE DISCLOSE ACT, DEMOCRACY IS STRENGTHENED BY 
                 CASTING LIGHT ON SPENDING IN ELECTIONS

                              ----------                              


                         THURSDAY, MAY 20, 2010

                          House of Representatives,
                         Committee on House Administration,
                                                     Washington, DC
    The committee met, pursuant to call, at 2:35 p.m., in room 
1310, Longworth House Office Building, Hon. Robert A. Brady 
(chairman of the committee) presiding.
    Present: Representatives, Brady, Lofgren, Capuano, 
Gonzalez, Davis of California, Davis of Alabama, Lungren, 
McCarthy, and Harper.
    Staff Present: Khalil Abboud, Professional Staff Member; 
Darrell O'Connor, Professional Staff Member; Jamie Fleet, Staff 
Director; Tom Hicks, Senior Elections Counsel; Janelle Hu, 
Elections Counsel; Jennifer Daehn, Elections Counsel; Matt 
Pinkus, Professional Staff/Parliamentarian; Kyle Anderson, 
Press Director; Joe Wallace, Legislative Clerk; Victor Arnold 
Bik, Minority Staff Director; and Katie Ryan, Minority 
Professional Staff Member.
    The Chairman. I would like to call the Committee on House 
Administration to order. Today we mark up H.R. 5175 the 
DISCLOSE Act. The DISCLOSE Act has a simple goal: Letting the 
American people know who is trying to influence our election.
    When the Supreme Court decided the case last January 1, I 
was disappointed in the Court's decision, but I was very 
pleased that the Court, by a vote of eight to one embraced 
disclosures as a way to getting the electorate information 
about election-related spending. Advancing the DISCLOSE Act 
today helps us further that goal. Since the Court's decision in 
January, the Congress has convened six hearings involving 36 
witnesses on topic. Those hearings have informed and enhanced 
the legislation before us today. I hope that the amendments 
offered by members will continue that progress.
    I would now like to recognize our ranking member, Mr. 
Lungren for an opening statement.
    Mr. Lungren. Thank you very much, Mr. Chairman. Given the 
amount of work that we have before us this afternoon, I will 
try to be brief. I would like to voice my objection and 
disappointment to the process that this bill has been 
presented.
    Mr. Chairman, it, as I understand, does not require 
advanced notice for markups in the rules, but I would hope that 
in light of the revolution of drafting errors and some 
unintended consequences on the health care bill that we could 
have used a better process on this bill. You personally made an 
effort to have a productive debate on the bill and I do 
appreciate that, but I have to object to the way this markup 
has been handled.
    I also note the recent Roll Call article in which a 
representative from the majority said that, quote, ``Whatever 
tweaks the campaign finance bill needs can be made as it 
advances.'' I find that somewhat disturbing since what we were 
talking about is a very delicate matter. It is called the First 
Amendment to the Constitution. It is called political speech. 
It is called as the majority opinion said in the case that we 
are concerned with, the essence of protected free speech in the 
First Amendment. And it just seems to me to be somewhat 
questionable that we would be dealing with it in this way.
    As I understand, the whole purpose of moving a bill through 
committee is to allow the detailed analysis that will fix the 
glaring as well as the hidden problems in the bill. And when we 
move the bill to the floor as much as possible, it is supposed 
to be a finished product, one we can determine with certainty 
what it is and what it is not intended to do. But whether or 
not we agree on the substance of the issue is one thing, but I 
would hope that this committee would be able to put out a bill 
where a debate on the floor argues the substance of our 
disagreements rather than just trying to clarify the content.
    Mr. Chairman, our side only got to the 87-page manager's 
amendment 22 hours before the markup. We have worked very hard 
over this last night to try to see what improvements we could 
make in the bill, but I can't promise we were able to catch 
every problem. We do have a number of amendments intended to 
bring some much-needed clarification to this bill, and I would 
hope that today's markup will address some of these very 
problematic concerns. And once again, I must just reiterate we 
are talking about responding to the Supreme Court decision.
    The Supreme Court decision dealt with the First Amendment 
to the Constitution. It dealt with protected free speech, and 
the essence of that amendment is protected political speech. We 
ought to be very careful how we handle it and not handle it in 
a hasty manner. And at least, according to articles that have 
appeared, this has obviously been the subject of debate on your 
side of the aisle and some question as to whether we should go 
forward. I guess the decision has been made that we are going 
to go forward.
    So we will work with you on this, but I just must express 
my disappointment when we are dealing with such an important 
subject to the democracy of this Nation that we have to handle 
it in this way.
    I thank you, Mr. Chairman, for the time.
    The Chairman. I thank the gentleman.
    Anybody have any opening statements they would like to 
make?
    Ms. Lofgren.
    Ms. Lofgren. Thank you. Mr. Chairman, I will be brief. I 
have asked to put my full statement in the record.
    The Chairman. Without objection.
    Ms. Lofgren. I would just like to note that I think, 
actually, the process on this bill has been pretty extensive. I 
mean the Citizens United decision was handed down by the Court 
January 21. There have been six hearings on the decision since 
that time, three by the House Administration Committee, one by 
the Judiciary Committee, one by Financial Services and one by 
the Senate Rules Committee. We have had a total of 36 
witnesses, I think as you have mentioned, and 17 of those 
witnesses testified in front of this committee. Mr. Schumer and 
Mr. Van Hollen released a framework for their bill February 11, 
and the bill was introduced April 29, and the bill before us 
really follows the outline that was released 2 months earlier.
    It has been 3 weeks since that time, and I think there has 
been a substantial amount of time to review the draft as well 
as the manager's amendment, which we will stay here as long as 
necessary to go through today. And in fact, we have 
incorporated a number of the ideas raised by the minority that 
were good ideas, clearing up the ambiguity as to whether U.S. 
citizens who are employees of a foreign corporation may 
voluntarily contribute to their employers PAC. They can and we 
have clarified that. It was a good idea. It clears up the 
coordination language to make sure that the mere sharing of 
legislative or policy positions with a candidate is not 
coordination and that was a good suggestion.
    It modifies the disclaimer rules for radio and TV so that 
there can be a hardship exemption if it would take up too much 
of the content time and that was a good suggestion. It conforms 
the definition of public communication to that which is in the 
Federal Elections Campaign Act and cleans that up.
    So that was a good suggestion. And we will have amendments 
here today, some of which I think will probably we are going to 
agree with. So I think this is the process the way it works. I 
remember when I was in law school, I was told that when you 
have the facts, argue the law. When you have the law, argue the 
facts. When you don't have either, argue a lot. And sometimes 
that happens here as we try to make our points but I think we 
will have a productive markup today. And I yield back.
    The Chairman. I thank the lady. Anybody else have any 
opening statements?
    Mrs. Davis of California. Thank you. Mr. Chairman, I was 
just going to say that I don't think my constituents have had 
difficulty exercising their free speech rights since this 
decision came down. We really have heard from hundreds of angry 
constituents who were calling in, but none of them have written 
in support of the ruling. They have been concerned about two 
things, and I hope that we will have an opportunity to really 
discuss these two things. Making sure special interests don't 
take over our elections and making sure voters know who is 
really behind the ads that they see.
    I know, Chairman, you have often said people want to know 
who is paying and what they are saying and that's important for 
all of us. So I think it is a kind of a truth in advertising 
and we need to go through it. We need to explore what the 
concerns are and I think that the process that we have had--
sometimes the process is shorter than we all would like, but we 
have had good hearings.
    We have heard from a number of witnesses expressing 
concerns and criticisms. I don't think anybody felt slighted in 
the hearing that was here before, and I know that we have 
addressed many of the concerns that have come forward in the 
manager's amendment and taken their concerns into consideration 
as we enhance the bill.
    So I am glad we can have an opportunity to put foremost in 
our mind voters first by passing this DISCLOSE Act today, but I 
think we are going to have a very robust discussion and I look 
forward to that.
    The Chairman. I thank the lady. Anybody else? Hearing none, 
I will now call before the committee H.R. 5175. Without 
objection, the first reading of the dispensed with and the bill 
is considered read and open for amendment at any point.
    [The information follows:] 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. The Chair now offers an amendment in the 
nature of a substitute which is before the members. Without 
objection the substitute is considered as read.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. The substitute before you is a result of the 
hearings this committee has conducted and the valuable 
bipartisan feedback we have received from these hearings. The 
substitute contains two improvements that are a direct result 
of the feedback we have received from the minority witnesses 
and the Republican members of this committee. First, the 
substitute contains a hardship exemption to the mandatory radio 
and TV disclaimers that if communications are of such a short 
duration and it takes up too much time of the entire 
communications, you will be able to pursue an exemption to the 
requirements.
    Mr. Lungren and Mr. Harper raised this issue and it was a 
perfectly legitimate issue. So I included a provision that 
would direct the Federal Election Commission to authorize 
regulation to provide for that exemption. You have a 10 second 
ad and it takes 4 seconds for the disclaimer. They can apply 
for a hardship exemption 30-second ad. I believe that my 
friend, and he is my friend, Mr. Lungren, said that they timed 
a 14, 16-second disclaimer. You now can apply for an exemption 
and I am sure that we will receive one so that the ad doesn't 
take up--you get your message across rather than who is on the 
line of people that are saying it.
    Second, the substitute revises a section requiring public 
dissemination of a covered organizations as public, independent 
expenditures. This substitute requires covered organizations 
who have maintain an Internet site to post on the site a 
hyperlink to the Federal Election Commission site where the 
disclosure reports are filed. I agree with the minority 
concerns that requiring a covered organization to develop, 
operate, and maintain complicated reporting instructions at 
their own expense may be too complicated and too costly. By 
allowing them to just link directly to the FEC, this provision 
will relieve the expense of time and money. This means that a 
person can just click on a link on an organization Web site and 
go directly to the FEC where the disclosured information is. 
This eliminates an organization from assigning someone to 
constantly update their own Web site and the money that it 
costs to have that done.
    The substitute makes other improvements. It adds a new 
section of the bill allowing United States citizens employed by 
United States subsidiaries of foreign countries to form and 
make voluntary contributions to separate forms or PACs. The 
employees of a United States subsidiary can now contribute to a 
PAC so long as that PAC is not controlled or directed by 
foreign interests.
    The substitute also makes other technical amendments that 
have been made to clarify the purpose of the coordinated 
communication sections. It does not interfere with the bloggers 
or the Internet and clarifies the confusion in the original 
bill. These changes also preserve current FEC regulations on 
coordination that allows for safe harbors and firewalls. The 
DISCLOSE Act was not intended to interfere with true grassroots 
lobbying of Federal officials on legislative issues from being 
caught up in our campaign laws. If a constituent group asks for 
our help or advice we should be able to help and advise that 
group without that group being disqualified from making a 
contribution so long as that help and advice have nothing to do 
with our own campaigns. This substitute improves the DISCLOSE 
Act, and I urge the members to support it. And I ask if there's 
any debate on this substitution, substitute act.
    If not, then I would ask are there any amendments to the 
substitute.
    Mr. Lungren. Mr. Chairman.
    The Chairman. Yes. Mr. Lungren.
    Mr. Lungren. We have a number of amendments on our side of 
the aisle. So I would like to present the first of my 
amendments. I think it is amendment No. 1. It should be at the 
desk.
    The Chairman. Okay. This is amendment No. 1. I recognize 
the gentleman for 5 minutes.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Lungren. Thank you very much, Mr. Chairman.
    Mr. Chairman, the amendment that I have would strike 
section 2 of the bill that has the purported findings of this 
committee with respect to the bill. There are some of the 
findings that I think refined I can certainly agree with. There 
are others that I find to be contentious. And by containing 
some of the findings and not containing others in similarly 
situated circumstances, I think it goes well beyond the 
committee's record representing an ideological statement rather 
than a summary of the facts before the committee.
    For instance, the findings related to government 
contractors state that government contracting is an activity 
particularly susceptible to improper influence and the 
appearance of improper influence as opposed to other kinds of 
conduct. Yet not a single one of the witnesses in either of our 
hearings gave examples of this being the case. We do not have 
any records--cases that point to improper behavior in 
government contracting.
    Moreover, if a government official were to exact pressure 
on a government contractor to make an independent expenditure, 
as is suggested in the findings, that behavior is already 
illegal under current criminal statutes. It does not set the 
predicate for our making changes in the law here. The Court's 
decision in Citizens United did nothing to change procurement 
guidelines, the role of the Inspector General's office, the 
role of the Committee on Standards of Official Conduct or many 
of the other safeguards Congress has already put in place to 
prevent corruption. The findings of section 2 of the bill 
therefore do not really go to the need for a bill nor to 
anything that was presented to this committee, therefore 
anything that we absolutely considered.
    Rather, it is a selective parade of horribles, suggesting 
that which could happen under current law and, in fact, these 
things cannot happen under current law, that is, if the current 
law is prosecuted.
    Secondly, it seems to be somewhat selective in that it 
refers to those contractors, but it doesn't refer to those who 
represent public employees in terms of their direct 
negotiations with the government. And if there is a suggestion 
of a particular problem of potential corruption in terms of 
government contracting, that would certainly lie also with 
respect to those negotiating on behalf of a large number of 
people for essentially taxpayers' dollars that are far greater 
than the threshold that is established in this bill.
    Regarding the findings on foreign corporations, the bill 
makes broad statements arguing that Citizens United opened the 
door for foreign companies to influence American elections 
through their American subsidiaries. However, foreign nationals 
have always been prohibited and continue to be prohibited from 
making decisions affecting American elections through their 
subcommittees.
    Currently, all decisions of the nature, that is, of a 
political nature, must be made by Americans within the 
subsidiary and cannot be influenced by the international 
governing board. I think that is good law. I think that is good 
policy. That is already good law and good policy. It is already 
prohibited. That is, that kind of activity in contravention of 
that policy it is already prohibited under current law, a 
position long held before the Citizens United and was not 
addressed in any way by before the courts.
    So the Citizens United case doesn't change it at all. Many 
of the findings include factual and legal conclusions that go 
beyond the committee's record and represent statements rather 
than a summary of facts before the committee. Now, we might be 
able to sit down and agree on them, but frankly I would think 
that a committee ought to at least have a record that supports 
the purported findings. It is difficult enough now to get the 
courts to seriously consider findings contained in laws passed 
by the Congress, but where you have findings that have no 
support in any record whatsoever, why would anybody question 
whether courts don't take those into consideration in terms of 
interpreting the law?
    It is telling that the substitute amendment the majority 
provided us late yesterday afternoon struck portions of the 
findings and added others that were not previously found in the 
bill. I can only ask if we were going to hold this markup next 
week whether we would find other findings added and the current 
findings extracted. Mr. Chairman, I would just say the findings 
do not reflect the facts as we know them, certainly not 
contained in any record of hearings in this committee, and I 
would hope my colleagues would join me in striking this section 
of the bill. I thank you, Mr. Chairman.
    The Chairman. I thank the gentleman. Any other additional 
debate on this amendment?
    Ms. Lofgren.
    Ms. Lofgren. Mr. Chairman, I cannot support the amendment 
and I think actually the disagreement about the findings that 
our friend and my colleague from California has outlined really 
reflect or underlying disagreements about the bill itself and I 
do think that having findings and I commend the chairman for 
tightening them up in the manager's amendment. I thought that 
was helpful.
    Having findings is helpful to the Court. The finding lays 
out the history of campaign finance laws, why the proponents of 
the bill believe it is necessary, why Congress has a compelling 
interests to act and I think that if the courts see this, that 
will be helpful to them in understanding the intent and the 
rationale for the bill itself, understanding that there is a 
disagreement about the underlying bill. And I know we have many 
amendments; so I will not go on at great length, but I did want 
to respectfully disagree. And I yield back.
    The Chairman. I thank the lady. Any other debate? Hearing 
none--Mrs. Davis.
    Mrs. Davis of California. Mr. Chairman, I think Ms. Lofgren 
really laid a little bit of that out. I mean, this really is 
just hiding the reason that we are moving forward with this 
bill, and I think that is what is problematic. I rather 
appreciate my colleagues saying--they certainly agree--I am 
certain they would agree with something like the American 
people have a compelling interest in knowing who is funding 
independent expenditures and electioneering communications to 
influence Federal elections. I would hope that there is no 
disagreement with that. There are a number of other statements 
here that really highlight the disclosure and the disclaimer 
requirements that have been affirmed again and again by the 
Court.
    That is really the reason for laying out these kind of 
basic commonsense ideas that are part of this. So I think we 
could probably wordsmith some of this, and I think that the 
manager's amendments begin to deal with that, but in this kind 
of legislation, I think you really do have to lay out why are 
we doing this, and that is what is clear in the bill. Thank 
you.
    The Chairman. I thank the lady. Any additional debate on 
the amendment to the substitute?
    If not, the question is on the amendment.
    All those in favor signify by saying aye. All those opposed 
no? No.
    In the opinion of the Chair, the noes have it. The noes 
have it and the amendment is not agreed to. The next amendment. 
Any further amendments?
    Mr. Lungren. Mr. Chairman, I have an amendment I think it 
is labeled amendment No. 2.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. I recognize the gentleman for 5 minutes.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    Yesterday we received a letter from eight former FEC 
commissioners pointing out that one of the most glaring 
problems with the so-called DISCLOSE Act is that it, quote, 
``abandons the longstanding policy of treating unions and 
businesses are equally.''
    Now, I know we have heard rhetoric in this committee that 
that is not the case with respect to the bill, but in fact, it 
is, and I would hope that those on the other side of the aisle 
who have said we believe that our effort here is to make sure 
that everyone is treated equally--that has been the comment 
made by the authors of this bill in public testimony or at 
least public statements, that is, the press conference that 
they have had.
    And while the Supreme Court's opinion in Citizens United 
overturned bans against both corporations and unions, and that 
is very clear, this legislation seeks to regulate one while 
largely ignoring the other. Given that unions are some of the 
largest political donors to the political system, particularly 
on one side of the aisle, this admission in the bill suggests a 
partisan motivation for the legislation and it undermines the 
level playing field our campaign finance laws generally try to 
ensure. That is, if you read the letter from the former FEC 
commissioners, they outline the history of the laws dealing 
with campaign finance and they outline the fact that 
historically initially the laws with restriction were aimed at 
corporations at a time in our Nation's history when unions did 
not have that strong a position.
    When unions did develop in such a way that they were an 
active player in the economic field, the laws then caught up 
with that and basically treated in this area of the law both 
unions and corporations in the same way. That has been 
continued with both legislation passed by the Congress and with 
the regulatory schemes that have been established by the FEC 
since its existence. And so when you have a decision by the 
Supreme Court, which, because it is determined constitutional 
law and the application of current law, also continues the 
equal treatment of unions and corporations, it seems to me 
incumbent upon us to do the very same thing as we try to 
respond to that decision.
    This amendment would provide that the prohibition on 
expenditures by government contractors would apply equally to 
labor unions who have collective bargaining agreements with the 
government. Government employee unions have the same motive and 
opportunity for corruption that corporations do under the bill, 
and I hope the members of the committee will adopt the 
amendment. And why would I bring up the question of corruption? 
It is because the Supreme Court has made it very clear that the 
only way that we can have constitutionally valid restrictions 
on political free speech is when the principle of the potential 
of corruption or actual corruption involves itself, and so in 
the bill we have before us we are saying that those who are 
corporations that have contracts with the Federal Government to 
the extent of--I believe in your substitute you have kept the 
bar at--threshold at $50,000--that that is permissible because 
of the potential of corruption, that very section may very well 
be rendered unconstitutional by the Court because we, in fact, 
closed our eyes to the very same argument with respect to labor 
unions dealing with at least that amount of taxpayer dollars.
    In other words, the Court would look at our legislation as 
not being based on a constitutional foundation but rather for 
us deciding that there are favored and disfavored 
organizations. The Court spoke to that in its opinion. And all 
I am saying is if we believe truly with the findings and then 
with the provisions of the bill that government contractors as 
entities are particularly--or their activity with the 
government in the political environment is particularly 
susceptible to corruption, similarly that argument can be made 
with respect to unions representing members collectively who 
look to receive tens of thousands if not millions of dollars in 
taxpayer funds as a result of negotiations.
    So, Mr. Chairman, this is done for two reasons. One is I 
think it is the right thing to do, and secondly, if you are 
going to avoid having this section of the law being declared 
unconstitutional on its face, not as applied but on its face, I 
think you have to do this because the rationale then is an 
arguable one before the Court. We have said that in both 
situations where you have a direct relationship--a contractual 
relationship on the one hand and a negotiating relationship 
which ends up in essentially a collective bargaining agreement 
or contract, you have the potential for corruption and 
therefore you overcome the otherwise existing prohibition 
against having any restrictions on the exercise of free speech.
    So thank you, Mr. Chairman, for the time.
    The Chairman. You are welcome.
    Any additional debate on the amendments?
    Ms. Lofgren.
    Ms. Lofgren. Mr. Chairman, I don't agree with the 
amendment. I want to just explain why. Although there has been 
a lot of rhetoric on the subject the legislation actually does 
apply to both corporations and labor unions even though, I 
would add, the Citizens United never discussed labor unions 
because the case before them was corporations, but the 
extrapolation would be that they would include labor unions.
    And I think they would. I mean, the rationale was the same 
and that is why labor unions are included in the bill. But to 
say that a bill that covers labor unions if they are Federal 
contractors should change the definition of what a Federal 
contractor is, I think, is just a mistake and wrong. Under 
existing law Federal contractors defined to include any person 
who enters into a contract with the United States, and that 
would be corporations and labor organizations.
    So if you have a labor organization that is under contract 
to do a task, they would be covered. But I don't think it is a 
fair analogy between labor unions and contractors in the 
context of the amendment. The amendment--the section was 
enacted to deter government contractors from rewarding or 
punishing Federal candidates with the power to influence or 
reward those contracts. But in the case of a labor union, no 
Federal official can reward a union with a collective 
bargaining agreement. A union can only be formed after a 
majority of the employees vote to adopt one, and the process of 
negotiating a collective bargaining agreement involves a long 
give-and-take and ultimately a vote by the members to accept a 
contract.
    The unions use voluntary dues paid by the employees they 
represent to represent them, and by contrast the government 
contractors might use taxpayer dollars to elect those who would 
reward them with more contracts.
    So I think this amendment would actually extend more 
burdens on labor unions and corporations. I don't think that is 
fair. I don't think it is needed. I don't think it is just. And 
I don't support it. And I would yield back.
    The Chairman. I thank the lady. Is there any additional 
debate?
    Mr. McCarthy.
    Mr. McCarthy. Thank you, Mr. Chairman. Maybe I have to ask 
Ms. Lofgren a question here. First, let me go to Mr. Lungren 
because from the standpoint this bill deals with government 
contractors, the fear that something can be contrived because 
they have got a contract with the government. What Mr. 
Lungren's bill is saying is treat the labor unions who have 
collective bargaining agreements with the government the exact 
same way. So it is fairness. Now, if Ms. Lungren is saying 
that----
    Mr. Lungren. Ms. Lofgren.
    Mr. McCarthy. If Ms. Lofgren is saying that----
    Ms. Lofgren. That is why they put our names----
    The Chairman. I get them confused.
    Mr. McCarthy. Both from California.
    But if you are saying a union that gets their raises and 
gets their money from the taxpayer can't do the same thing that 
a government contractor does, I am very confused by that 
because what Mr. Lungren is saying, they both have contracts. 
They are both getting their money from the same place. So let's 
just make a level playing field and a fairness question. I was 
concerned--and if you would take a question--your statement 
that a contractor would do something wrong to get the contract, 
but a union cannot do that or influence in any way that 
somebody else couldn't do some type of influence.
    Ms. Lofgren. If the gentleman would yield, I made several 
points. One was how unions adopt their contracts and negotiate 
their contracts, but the further point I made is that the----
    Mr. McCarthy. Could I ask you one question on that 
because----
    Ms. Lofgren. Certainly.
    Mr. McCarthy. If they negotiate their contract, whom do 
they negotiate their contract with? Would these be elected 
officials in any way?
    Ms. Lofgren. No.
    Mr. McCarthy. Never elected officials?
    Ms. Lofgren. Not in my experience but----
    The Chairman. They negotiate with a contract association. 
They don't negotiate a contract with any elected officials.
    Mr. Lungren. Would the gentleman yield?
    Mr. McCarthy. I yield to Mr. Lungren.
    Mr. Lungren. I am glad to hear this because evidently now 
unions can stop making contributions because it won't matter 
who is elected and elected officials have no influence 
whatsoever on their appointees or in Congress we have no effect 
on laws that govern union conduct or negotiations or the 
universe of money that is available. I mean, I never said that 
corporations and unions are the same thing. What I said is they 
are similarly situated with respect to the argument of 
corruption and the argument of corruption is the only basis 
upon which the Supreme Court tells us you can put restrictions 
on political speech.
    That is the core of my argument. Not that a corporation is 
the same as a union. I am saying they are similarly situated 
with respect to the question of potential corruption. And I 
find it difficult to believe that anybody could seriously argue 
against that.
    I thank the gentleman for yielding.
    Mr. McCarthy. I reclaim, but I yield to Ms. Lungren--Ms. 
Lofgren.
    Ms. Lofgren. We get along, but not that well.
    Mr. Lungren. My wife is at home.
    The Chairman. We have got enough problems. You are starting 
more of them.
    Ms. Lofgren. Assuming that the gentleman is yielding to me, 
I would just note that unions use voluntary dues paid by their 
employees to represent them and also to elect people who they 
agree with. In contrast, the government contractor would be 
using taxpayer dollars to elect those who reward them with more 
contracts. I think it is quite a distinction and I would just 
add that if you take a look at what the agenda is of labor 
unions, it is really a mistake to assume that it is just about 
the conditions of employment. That is a collective bargaining 
right, but labor unions are responsible in large measure for 
supporting the existence of weekends in America, the 
establishment of a minimum wage, overtime laws and the like.
    Mr. McCarthy. Ms. Lofgren, if I could reclaim my time, many 
times elected officials determine whether that work is even 
going to be union based. So there is a direct correlation 
between this and I just believe if we are going to move 
forward, especially with the history of this bill, if you read 
the press with how it is being developed how, it is being 
pushed, the quotes from the DCCC chairman of how this has to be 
done before the election, I just think the American public 
would feel much greater comfort if it had blinders on, that it 
treated everybody equally that had any influence whatsoever.
    So from one standpoint, taking politics out of it would 
probably be the healthiest thing we do inside this body, and 
the idea that people are being treated fairly and equally, I 
think, has a much stronger argument than any potential out 
there, and I support the amendment.
    The Chairman. I thank the gentleman. Any additional debate 
on the amendment to this substitute?
    Mr. Davis.
    Mr. Davis of Alabama. I will be extremely brief, Mr. 
Chairman. The problem with the amendment, Mr. Lungren, that you 
and Mr. McCarthy are making, you are kind of mixing apples and 
oranges. You are saying that the government's interest is 
preventing any entity that somehow has a policy ambit with the 
Federal Government, that the Federal Government is making 
decisions on which they have a policy interest, that that 
somehow creates a corrupting influence.
    I don't think that is what the Supreme Court said in 
Citizens United. If the Court had said that, well, my goodness, 
any group that has legislation before the Congress could be 
prohibited from making contributions. What this particular 
section of the bill attempts to do is fill the very narrow 
question of contracting, and no one has really answered Ms. 
Lofgren's argument that the way that a corporate contract forms 
with the government is fundamentally different from the way a 
union contract forms. If a union contract forms through the 
collective bargaining process, as opposed through the 
government tapping someone on the shoulder and saying you get a 
contract, they are not similarly situated.
    The argument that is being advanced by our friends on the 
minority side would essentially say that if anybody has a 
policy interest that there is a conflict of interest. Surely 
the Court didn't mean to say that.
    Mr. McCarthy. Would the gentleman yield for a question?
    Mr. Davis of Alabama. Sure.
    Mr. McCarthy. Taking that argument about that undue 
influence, take a step back before that contract is given. 
Could a union have undue influence upon an elected official to 
make that contract a union-based contract and can only go to a 
union-based contractor? Could you see----
    Mr. Davis of Alabama. Reclaiming my time, Citizens United, 
I think, makes a very, very narrow point about corruption. It 
doesn't make the point that any potential political decision 
could be corrupt because special interests could influence it. 
If that were the case, you could say that doctors couldn't give 
contributions because we just had a health care bill or that 
doctors couldn't give contributions because Congress could deal 
with medical malpractice liability.
    What I think the Court is doing is making a very, very 
narrow focus on what kinds of activity tend to routinely and 
regularly trigger corruption. And I think the Congress can 
certainly make a judgment that the process of forming a 
contract is something that is fundamentally and qualitatively 
different than Congress simply casting a vote. So I am making a 
fairly narrow point--I am backing up Ms. Lofgren's argument 
that all the Congress is doing, all this committee is doing, is 
singling out contracting, which is a much narrower thing than 
Congress just expressing a policy interest.
    The argument that both of you were making on the minority 
said is that, well, Congress could do something that was pro-
union as well as pro-corporate therefore it could be unduly 
influenced, that is a much wider sweep than I think Citizens 
United permits but I will yield to you to address that.
    Mr. McCarthy. Just to that narrow point, I mean, our point 
is the same point. If the Court only went after contractors, 
how could those contractors influence--how else could they be 
influenced? If I happened to be a contractor and I was union 
based only or maybe I was in a union shop, if an elected 
official determined that that job was only one way or the 
other, it narrowed out the ability for other people to bid on 
it. So I understand your point where the Court went narrowly, 
but if you are going narrowly, all we are asking for is those 
unions involved in that predicament. So from the standpoint 
that you did with contracts----
    Mr. Davis of Alabama. Let me reclaim my time, just to 
finish these points because we have a lot of amendments. Ms. 
Lofgren is a making a very particular point. How a company 
comes to have a government union is a largely discretionary 
measure. It is based on some element of the political process 
making a decision. Someone could conceivably believe that the 
Chair of an Appropriations Committee, that someone else who was 
a political player in Congress could influence that decision. 
How and whether a particular union forms is not going to be 
based on whether any politician makes a discretionary judgment.
    It will be based--unless I completely misunderstand the 
process it will be based on what the members of that union want 
to do or what the potential members of that union want to do. 
So there is a factual difference in how a union contract forms 
in how a corporate contract forms.
    Am I right; Ms. Lofgren? So, because of that, Congress is 
entitled to treat apples and oranges differently. There is 
nothing in Citizens United that addresses the broad concern 
that Mr. Lungren put on the table that while Congress has a 
policy interest that may side with unions, therefore Congress 
being improperly influenced. If that is the standard, then my 
goodness, I mean, Congress could conceivably tell any group of 
American citizens you can't contribute.
    I yield back my time, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Mr. Harper. Mr. Chairman.
    The Chairman. Mr. Harper.
    Mr. Harper. I yield my time to Mr. Lungren.
    Mr. Lungren. Mr. Chairman, let me ask my friend from 
Alabama this question then. Would he see a distinction between 
the amendment I have offered and an amendment which would have 
a similar equal treatment to labor unions of government 
contractors?
    Mr. Davis of Alabama. Well, I don't see a distinction 
because--and I think this may be where we just have a 
difference of opinion, Mr. Lungren. I think our capacity under 
a Supreme Court president to regulate speech happens to 
continue to be still be very narrow. There is no question that 
Congress could not pass a provision saying, for example, that 
doctors couldn't contribute because Congress deals with issues 
in which they have an interest. Congress can exercise its power 
to regulate speech only in very specific circumstances that are 
more likely than not to lead to potential corruption----
    Mr. Lungren. Exactly my point.
    Mr. Davis of Alabama [continuing]. And I think what 
Congress is saying is the contracting process for corporations 
happens to factually meet that standard.
    Mr. Lungren. Let me ask you this: If you are, in fact, a 
union which represents the vast majority of employees of a 
government contractor, don't you have a similar interest as 
your corporate entity does in securing a contract from the 
government? What is the difference? The only way you are going 
to get employed and you are going to get paid is if your 
company successfully completes that contracting negotiation 
with the Federal Government and you have the very same 
interests in ensuring that is done, that same interest that we 
are arguing here under lies the potential for corruption. I 
would be happy to yield----
    Mr. Davis of Alabama. To follow the old lawyers rule, keep 
saying the same thing over and over, if you are right the first 
time--
    Mr. Lungren. No, I have articulated the difference between 
what the amendment I have is, which is represented, unions 
which are representing public employees versus the unions that 
would be representing employees of government contractors.
    Mr. Davis of Alabama. I will repeat the point that I have 
been making. The difference is I think, unless I completely 
misunderstand the case law here, Congress has limited sets of 
powers to regulate speech. The only times we can are when there 
is a finding in effect that one set of relationship has a 
greater propensity for corrupting influence than another, and I 
think this body and this committee can make the judgment that 
the process of how a corporation gains their contract is 
different substantively from how a union forms. That is a 
factual difference.
    Mr. Lungren. I understand, we disagree. You believe there 
is an essential difference if you happen to be a corporation. 
We believe that both a corporation and the union, which would 
benefit from those contracts or benefit from the negotiations 
under government decisions that would be made by elected 
officials has the same potential for corruption to the extent 
that that exists.
    We could argue about whether it exists or not, but to the 
extent it exists, you are arguing that this committee has the 
right--and we do have the right to make that determination. All 
I am saying is the net result is that you do not have equal 
treatment of those two and we could argue and we have been 
arguing as to whether or not they ought to be treated 
differently, and the decision here, if my amendment goes down 
is that they will not be treated the same because I guess the 
view on your side of the aisle is only the potential for 
corruption exists; with the corporations it doesn't exist with 
the unions, and that is a determination you can make, and I 
just don't happen to agree.
    Mr. Davis of Alabama. If the gentleman would yield for just 
10 seconds are.
    Mr. Harper. I would be happy to yield, Mr. Davis.
    Mr. Davis of Alabama. I am not saying, and I don't think 
that Ms. Lofgren is saying is that the difference that we think 
corporations are inherently more corrupt than unions. I am 
certainly not saying that. The point that I am making is 
Congress has to tie its regulatory power to a specific 
propensity of corruption. It is not based on whether it is a 
corporation or union; it is based on how the relationship 
forms. What you just outlined is a broad policy interest, a 
broad policy interest in unions that Congress may have, but 
that is not what we can regulate.
    Mr. Lungren. All I would say is no, based on any record 
that we have here, you can come to either conclusion. We have 
no evidence whatsoever in our hearings of any propensity for 
corruption in--it is a value judgment that we are making that 
per se that is a more potential corrupting situation than other 
situations. All I am saying is if you accept that, I believe 
you can find the same basis for finding in the situation of the 
unions as I have articulated, that is all.
    We have no record whatsoever in this committee, zero, no 
testimony whatsoever of evidence of corruption that would 
justify this, so we are able to make that judgment. All I am 
saying is you folks have made the judgment that corporations in 
that situation tend to be--have the greater potential for being 
corrupt than do unions, and I understand that, I just disagree.
    Ms. Lofgren. Would the gentleman yield?
    Mr. Harper. I would be happy to yield, Ms. Lofgren.
    Mr. Lungren. I am filing for divorce right now, if you 
won't support my amendment.
    Ms. Lofgren. I just think it is important to note, and I 
think it is clear, but it has gotten maybe a little muddled in 
the course of this discussion. If you have a contract with--
with contractor ``X'' to provide equipment, you are covered. If 
you have a contract with a labor union to do training under 
some government program, they are covered as well. If you are a 
contractor, you are covered no matter whether you are a 
corporation or a labor union. I think the gentleman's amendment 
goes one step further, and I, for the reasons I won't 
reiterate, I disagree with it, but I also think that Mr. Davis' 
point is also well taken, and it is one that we will mention on 
some other amendments which is the need to narrowly craft this 
measure.
    The Court actually talked a great deal about, really they 
dismissed the corruption basis for controlling speech under the 
FEC in favor of disclosure, which is, you know, I am not sure I 
completely agree with the decision but that is the decision we 
are living with because it is the decision they made. So I 
thank the gentleman for yielding and allowing me to clarify my 
comments.
    Mr. Harper. Mr. Chairman, I yield back.
    The Chairman. I thank the gentleman. Any additional debate 
on the amendment to the substitute? If not the question is on 
the amendment. All those in favor say aye, opposed no. In the 
opinion of the Chair, the noes have it.
    Mr. Lungren. I would like to request a roll call vote, 
please.
    The Chairman. The gentleman requested a roll call vote. I 
will ask the clerk to call the roll.
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. No.
    The Clerk. Mr. Capuano.
    Mr. Capuano. No.
    The Clerk. Mr. Gonzalez.
    [no response.]
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mr. Davis of Alabama.
    Mr. Davis of Alabama. No.
    The Clerk. Mr. Lungren.
    Mr. Lungren. Aye.
    The Clerk. Mr. McCarthy.
    Mr. McCarthy. Aye.
    The Clerk. Mr. Harper.
    Mr. Harper. Aye.
    The Clerk. Mr. Chairman.
    The Chairman. No.
    The noes are five, the yeas are three. The noes have it. 
The amendment fails. Any further amendments?
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Harper. Mr. Chairman I have an amendment at the desk. 
Mr. Chairman, I think this amendment that I have here, 
amendment No. 3, is something that I think is very simple. It 
will make us consistent. If there is a potential for conflicts 
of interest to arise, if government contractors or TARP 
recipients made political contributions or expenditures, the 
same potential for conflict is present with organizations that 
receive government grants. They may want to influence the 
government officials who provide their grants. They may make 
political expenditures to do that, just like a government 
contractor.
    Recipients of government grant funds like ACORN should not 
be able to use government funds to influence future grant 
awards. This amendment would change the bill to treat 
government grantees as the bill currently treats similarly-
situated government contractors and TARP recipients, and I urge 
my colleagues to support this amendment, Mr. Chairman.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. I would like to recognize Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman. I think that, 
although I am sure well intentioned, the amendment is flawed 
and overbroad. In fact, it doesn't--it says who receives 
Federal funds other than an individual receiving Federal funds? 
What does that mean? Is that a biotech company that gets an R&D 
tax credit? I mean, it is very, very broad, this language; as a 
matter of fact, I think it is overbroad and it is so broad that 
I think I don't think a court would sustain this as a narrow 
approach to disclosure. It doesn't even define what Federal 
funds are. Is it disaster relief? Would it be flood control 
projects? Would it be rebates to keep American jobs at home? I 
mean, clearly, this is not directed merely to TARP funds or to 
grantees and I would point out, although the minority has never 
been a fan of ACORN, ACORN no longer exists, so that is 
obviously not going to be someone receiving funds.
    So I think that this amendment is really contrary, even to 
the minority's witnesses at our hearings who argue that the Act 
we have before us is already overbroad, this makes it even 
broader. It would sweep organizations into the ban for no 
apparent reason at all, and I would yield to Mr. Davis.
    Mr. Davis of Alabama. Let me thank the gentlelady for 
yielding, because I think she made one of the most important 
things this committee has to consider, if there is any hope of 
this legislation being upheld by the U.S. Supreme Court. 
Congress cannot adopt the policy that there is a potential 
conflict of interest that because Congress has to vote on 
something that affects an entity, that that group can't try to 
influence Congress.
    That is such a broad and sweeping proposition, the Court 
would not uphold it for a second. And while it sounds 
attractive from a public policy standpoint, or certainly from a 
political standpoint to say that TARP recipients can't make 
contributions as a practical matter, the only basis for that 
would be some kind of generic conflict of interest rationale. 
And as Ms. Lofgren just pointed out, that is an overly broad 
interpretation of our capacity and to regulate----
    Ms. Lofgren. Reclaiming my time, I would note also that the 
Federal funds in the amendment itself are not limited to TARP 
funds, it is any Federal funds. So obviously, it could be tax 
credits, it could be anything.
    Mr. Davis of Alabama. If I could ask the gentlelady one 
question, one obvious example, we are about to vote on the jobs 
bill tomorrow. One of the issues in that jobs bill is whether 
or not carried interest will continue to receive a certain tax 
treatment. Would anyone logically suggest that Congress could 
prevent individuals or entities that benefited from the carried 
interest provision that they couldn't make contributions? We 
could go on and on, no one would make that argument.
    Ms. Lofgren. Reclaiming my time. This is an amendment that 
we should not support, although I certainly do not question 
that the author's motivation is way overbroad. And I think not 
crafted narrowly, and I yield back.
    The Chairman. Any additional debate on the amendment? Mr. 
McCarthy.
    Mr. McCarthy. If I could just ask Mr. Davis, based upon 
what you said earlier about the very narrow, and then listening 
to Ms. Lofgren come back and say--and said the TARP the way the 
bill reads is very broad; is that your interpretation, then, 
this bill has gone too far? That it would be not upheld by the 
Supreme Court based upon your earlier comments?
    Mr. Davis of Alabama. Well, if the gentleman is yielding.
    Mr. McCarthy. I will gladly yield to you.
    Mr. Davis of Alabama. Ms. Lofgren, I think, makes the point 
again exactly right, whether or not the provision singles out 
TARP recipients, which I don't think it does. I think that is 
one example of the bill's ambit. If the bill's ambit aims at 
``recipients of government grants,'' again, what is the broad 
basis behind Congress's actions?
    If the theory is that people who benefit from government 
action can't contribute, that is such a broad rationale that it 
would cover the people arguing about carried interest right 
now. It would cover the people arguing about the R&D tax credit 
right now. That could not be a permissible basis for a 
congressional action. And if there were a specific effort for 
some reason to single out TARP recipients, logically I don't 
think that that would pass even a rational basis test because 
of the lack of difference between TARP recipients and other 
entities who were affected by government action, there has to 
be a narrowness to what Congress does, singling out 
contractors.
    Mr. McCarthy. You think this bill is narrow enough, I am 
very concerned reading the bill that maybe where you're 
arguing, you are making a very good argument that this wouldn't 
be held up constitutionally.
    Mr. Davis of Alabama. Well, I don't want to be the only 
person talking here, but just to quickly respond, Mr. McCarthy, 
I want to get out of here too. But just to respond to your 
point, you are switching between the broad and the narrow. The 
consistent concern I am advancing is we really don't have a lot 
of leeway to act. And our leeway to act is based on specific 
particularized findings that one kind of relationship is likely 
to have a certain impact that we can attack.
    Ms. Lofgren. Does the gentleman yield.
    Mr. McCarthy. Gladly.
    Ms. Lofgren. I would note if you take a look at the 
amendments starting on page--well, the first page line 11 who 
receives Federal funds, and we talked about what our Federal 
funds, it could be anything. During the period during which the 
day it was supposed to supply to receive such ends on the 
applications dah, dah, dah, dah, it is a prohibition on 
expenditures, unlike the rest of this bill, which is a 
disclosure.
    The Court directly said, you can't prohibit speech, that is 
what this whole Citizens United decision was about, and they 
steered the Congress to disclosure. So, you know, this is way, 
way beyond what the underlying bill does. In fact, we are not 
going to do any--I didn't raise a germaneness issue, but its 
prohibition on expenditures may not actually even be a germane 
amendment.
    Mr. McCarthy. If I could reclaim my time.
    Ms. Lofgren. Certainly.
    Mr. McCarthy. I think the gentleman is saying here though, 
if you can go after from a narrow point contractors, you are 
now looking at taxpayer money to grants that have the same type 
of influence that you made the whole argument for contractors, 
so it is still in a narrow perspective, and Mr. Davis makes 
another argument that makes me look at the entire bill that 
maybe the bill you are going to pass is not going to be upheld 
within in the Constitution regardless.
    So I would argue for the point for the amendment in support 
of it and I yield back.
    The Chairman. Any additional debate on the amendment to the 
substitute? If not the question on the amendment all those in 
favor say aye.
    Those opposed, no.
    In the opinion of the chair the noes have it, and the noes 
have it. And the amendment is not agreed to.
    Any further amendments?
    Mr. Lungren. I have amendment number 4.
    The Chairman. Recognize the gentleman.
    Mr. Lungren. Thank you very much, Mr. Chairman. 
Interestingly enough I do agree with the gentleman from Alabama 
about the necessity of us narrowly drawing any restrictions 
that we have here. And although the gentlelady has said this is 
all about disclosure, we do, in fact, have prohibitions against 
participation depending on how much foreign ownership interest 
there is. So we go beyond disclosure in this law. But let me 
just say, I, therefore, am concerned with the breadth of the 
current language in this bill that treats American subsidiaries 
of foreign companies that employ thousands and even hundreds of 
thousands of American workers as foreign nationals.
    At the same time, I think we ought to be very, very clear 
that foreign governments and sovereign wealth funds are not 
able to improperly influence our election. I think we can do 
that, but not be as broad as the section in the bill that I 
seek to amend is. This amendment replaces section 102. What it 
replaces it with is a strict prohibition on any foreign 
national directing or controlling political activity, thereby I 
would be codifying current FEC regulations.
    One of the points we have made is the concerns expressed in 
this committee by members and by some on the panel that 
appeared before us was this undue foreign influence. And we 
tried to make the point that it is already illegal. And some 
have made the point well, wait a second, it is articulated 
specifically by FEC regulations.
    So I have taken the FEC regulations and incorporated that 
as statutory language, and that is the essence of this 
amendment. It expands the definition of foreign national to 
include any entity majority owned by a foreign government or 
foreign political party. The amendment is in direct response to 
some of the suggestions made by my friend, Mr. Capuano, when we 
were discussing this as how they would try and deal with this 
issue.
    And the language I use is already settled law as 
interpreted by the FEC. And I think it goes directly to the 
point that members were concerned about, but does it a way that 
is not overly broad, and therefore protects Americans who want 
to participate in the political process, and in the way that 
the associational rights recognized in the Citizens United case 
provides.
    So I would hope that you take a serious look at this 
amendment. It is a good-faith effort to try and protect against 
the concerns everyone here has expressed, but at the same time, 
not be overly broad as our friend from Alabama has suggested. 
And I couldn't find better language than that which the FEC 
already has by way of regulation.
    This will make it a statutory prohibition in these regards. 
And with that, I would yield back. Thank you very much, Mr. 
Chairman.
    The Chairman. You are welcome. Any additional debate on the 
amendments?
    Ms. Lofgren. Mr. Chairman.
    The Chairman. Ms. Lofgren.
    Ms. Lofgren. I am--I can't support this amendment, and if 
you take a look at the language itself, I mean one of the 
things that we need to do as legislators is to be particular 
and especially when dealing with the First Amendment to not be 
vague, because if you are vague and if what you crafted is 
vague, it is unenforceable and then it will be 
unconstitutional, and I think that is the problem with the 
amendment before us.
    Section 3 beginning on line 15 is a prohibition of a 
foreign national, I assume that would include illegal permanent 
resident of the United States, to directly or indirectly 
participate in the decision-making process of any person. Well, 
what does that mean? If you are a legal permanent resident and 
you indirectly participate in the decision making of a State 
election-related activity--I just think it is 
unconstitutionally vague, I don't think anyone would know what 
we are talking about.
    And I do think that the language referenced by my colleague 
from California on page 2 expanding the definition of it is not 
a substitution, it is an additional definition is a good-faith 
effort to try and get at the issues raised by Mr. Capuano at 
our hearing, but I think it is fatally defeated by the 
unconstitutionally vague language on the prior page starting at 
line 15.
    So, you know, one of the things we need to make sure we do 
when we craft this, we know there are going to be challenges to 
this statute if it becomes law. I think it is important that we 
craft a bill that can be become law and that can withstand 
challenges. And I think adoption of this amendment would 
certainly move us away from that goal. And so I would urge that 
we do not adopt the amendment.
    The Chairman. Is there any additional debate to that? Mr. 
McCarthy.
    Mr. McCarthy. Thank you, Mr. Chairman, I would like to 
yield my time to Mr. Lungren.
    Mr. Lungren. I understand the gentlelady's disagreement to 
us offering amendments here that would change any of the 
language that has already been presented to us in the last 24 
hours, but I find it peculiar to argue that my language is 
vague when, as I said, I have taken this language directly from 
the FEC regulations which have, as far as I can tell, withstood 
any challenge.
    Now we are making up language in terms of this bill, what I 
mean by that is it is language that will be subject to 
interpretation by the Court. So if there's any suggestion that 
any uncertainty would prevail, it would be with the language 
that is before us presented in the substitute amendment. What I 
have tried to do is bring clarity in it, using language very 
specifically narrowly drawn by the FEC that deals with this. So 
I understand if the gentlelady wants to disagree with me, but 
the argument the gentlelady makes is--it turns my language on 
its head. I have used language that already exists, that has 
been through review that applies, and therefore, one would 
believe that this would give greater guidance to those who 
would be subjected to it.
    And one of the things that I would hope that we would try 
to do, and we are going to pass a law knowing that the 
regulations by the FEC are not going to go into effect before 
this election is at least give people a chance to express their 
First Amendment rights. I mean, if the idea is to chill any 
activity, I understand. But if the idea is to narrowly draw to 
have the protections that we believe are necessary, but at the 
same time, allow those areas of political participation that 
are guaranteed under the Constitution, I would think that the 
gentlelady from California would join us in trying to ensure 
that people are able to express themselves to the extent 
allowed under the Constitution, rather than create new language 
that will be vague in the sense that it will be challenged and 
we know the FEC wouldn't have time to bring up new regulations.
    At least when we pass a bill that uses the language they 
have in their current regulations we stand a fairly good chance 
that they might accept that language. So I thank the gentleman 
for his time and yield back.
    Mr. McCarthy. Thank you, Mr. Chairman, I yield back my 
time.
    The Chairman. Is there any additional debate on the 
amendment to the substitute? Ms. Davis.
    Mrs. Davis of California. Mr. Chairman, just trying to 
clarify from Mr. Lungren. As I understand the language refers 
to indirectly participating and what does that mean, does that 
come from the FEC language?
    Mr. Lungren. The short answer is yes. Excuse me, the short 
answer is yes.
    Mrs. Davis of California. Where does it say to you, what 
does it mean to you? That is FEC language you are saying?
    Mr. Lungren. It is a way that the FEC has tried to get 
around the possibility that you could give direction to 
somebody to make the decision when you are not supposed to make 
the decision. In other words, influencing it ``indirectly.'' 
What is prohibited you can't do indirectly. Trying to cover 
those situations where there was a sneak attack.
    Mrs. Davis of California. And in the manager's amendment, 
am I right to conclude--that language is not used in the 
Manager's amendment.
    Mr. Lungren. No.
    Mrs. Davis of California. Correct?
    Mr. Lungren. I don't believe so. No, I used FEC language. 
FEC regulation language.
    The Chairman. Is there any additional debate on the 
amendment to the substitute? If not the question on the 
amendment. All those in favor say aye.
    Those opposed, no.
    In the opinion of the chair the noes have it, and the noes 
have it. And the amendment is not agreed to.
    Any further amendment?
    Mr. Lungren. Mr. Chairman, I have amendment number 5.
    The Chairman. The gentleman's recognized.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Lungren. Thank you, Mr. Chairman. Well, we will see how 
well we do on this one. This is a simple amendment to provide 
that labor unions must certify that no dues were received from 
foreign nationals prior to making political expenditures.
    In your opening statement, Mr. Chairman, at our May 11th 
hearing on the legislation, you said we do not let foreign 
citizens vote in our elections, we should not let them have any 
financial interest in them either. Well, I think I agree with 
you, foreign citizens shouldn't have financial interest in our 
elections, whether they are foreign citizens that have a part 
of a foreign corporation or foreign citizens that are part of a 
union with interest in the United States.
    This amendment would, again, in my humble opinion, seek to 
treat corporations and unions even handedly under the bill. It 
would require that labor unions certify that no dues were 
received from foreign nationals prior to making political 
expenditures, the same requirement this legislation places on 
other organizations. If we believe because of the restrictions 
we put on foreign nationals in other situations to directly 
spend on U.S. elections, they shouldn't be able to use either 
corporations or unions as intermediaries or conduits that is 
the simple purpose of this amendment.
    I think it is drafted to achieve this purpose, I hope you 
would consider it fair, evenhanded and directly to the point. I 
would hope I could get members to support this, and with that, 
I yield back the balance of my time.
    The Chairman. Any additional debate on the amendment?
    Ms. Lofgren. Mr. Chairman.
    The Chairman. Yes, Ms. Lofgren.
    Ms. Lofgren. I think this is a mistake, and I will tell you 
why. First, I think that this is a tremendously burdensome 
requirement on unions and it is a special burden to unions that 
would not apply to corporations with the same zeal. The 
manager's amendment applies, I think, rather evenhandedly to 
both labor unions and corporations as well as trade 
associations and nonprofit advocacy groups. I think trying to 
place more stringent rules on only one entity, labor unions, 
this really isn't very fair. Just think about how this would 
work. And you have got a labor union, maybe an international 
union that could have, like, a million members, and maybe a 
handful of members who are not U.S. citizens. This would 
prohibit the speech since the Court has said money is speech of 
that organization unless there was this very burdensome 
preclearance procedure that I think would not withstand court 
scrutiny.
    I would note also that the--there are some, and we know 
this because we have discussed outside of this committee, there 
are, in fact, some individuals who are in the United States 
without their proper documentation or, in some cases, they are 
documented, but they are not legal permanent residents. They 
may be in unions, but I think to burden the vast majority of 
the union members, and to really prevent the speech, because of 
that, would not be fair, and I don't think it would----
    Mr. Lungren. Would the gentlelady yield.
    Ms. Lofgren. Let me finish my thought and then I will 
certainly yield.
    Mr. Lungren. Okay.
    Ms. Lofgren. I would like to also say that I believe that 
legal permanent residents do participate, can contribute under 
current FEC rules and their U.S.--let's check on that, but I 
think that is the case. Certainly, nonresident aliens may not 
and I--this would be changing the law.
    Mr. Lungren. Could I----
    Ms. Lofgren. Certainly legal residents can participate, 
they can walk precincts and have opinions and the like. So I 
think even the--the burden here, I think, is disproportionate. 
I don't want to go on at too great a length because I know that 
we have votes, but hopefully, I have made my viewpoint and----
    Mr. Lungren. Will the gentlelady yield?
    Ms. Lofgren [continuing]. I will yield to the gentleman.
    Mr. Lungren. I appreciate that. The point I am trying to 
make is, this is exactly the burden that is placed on the 
corporate CEO. A corporate CEO is required under the bill 
before us to certify prior to the time that they would 
participate in the political speech allowed under Citizens 
United would have to certify that they do not have a 20 percent 
ownership by foreign nationals. Think about what that requires 
the CEO to do. The CEO would have to try and somehow divine who 
owns every share of stock in the corporation.
    And as pointed out in the letter we received from the 
former FEC commissioners, that could change like that because 
of the way electronic purchasing and selling of stocks takes 
place. And it changes every day. And so, the burden that you 
have indicated would be very difficult for a union is the very 
same burden that we are placing on a CEO. And the CEO does this 
under penalty of perjury therefore having criminal sanctions 
imposed. If it is as burdensome as you suggest, then we are 
basically telling a CEO it is impossible for you to do this, 
therefore you can't do it, therefore your corporation cannot 
participate in political free speech as allowed under Citizens 
United. All I was trying to do was use the same sort of 
requirement.
    Ms. Lofgren. If I may reclaim my time. The provisions in 
corporations applies to individuals, and I don't believe to 
shareholders. We will get into that at greater length further 
on in the bill. But I would just like to note that labor unions 
don't decide who employees are, the employers decide who the 
employees are, and to put the burden on unions in this way, I 
think, is unreasonable. I just don't think it is possible.
    Mr. McCarthy. Would the gentlelady yield for----
    Ms. Lofgren. If I could finish my sentence and then I will 
be happy to yield.
    I think that the bottom line is that this amendment would 
really prevent every union in America from exercising their 
First Amendment rights to make contributions or independent 
expenditures. And in doing that, it would disenfranchise 
certainly not the handful of noncitizen members, it would 
disenfranchise all the citizen members. So this would have a 
very pernicious effect, and I will yield to the gentleman.
    Mr. McCarthy. Thank you. I listened to your statement that 
so my question to you is does a corporation get to decide who 
their shareholders are, in your statement?
    Ms. Lofgren. No, of course not.
    Mr. McCarthy. So wouldn't that apply to the same logic that 
you just laid out from a union's point of view?
    Ms. Lofgren. We will get into the foreign ownership 
discussion, there are other amendments on that later in the 
bill. I want to talk about this amendment right now. I want to 
do it quickly because we have to go vote and then come back and 
finish, but this won't work, this will not work and I can't 
support it and I yield back.
    The Chairman. Mr. Capuano.
    Mr. Capuano. I think the gentleman from California made 
some good points in the last issue and he did, he didn't ask 
for roll call, which is your problem.
    On this one though, it is just the opposite. I think you 
raise a good point on the 20 percent requirement on 
corporations, the way to address it is to fix that, not to add 
excessive burden to an entity that can't do it. I don't know 
how many donors you have, I don't even know how many I have. I 
cannot certify that all my donors are U.S. citizens. I can 
certify they tell me that they live in the United States. And I 
think that the problem you raise is a valid point, the solution 
is not. And if you would like to work on another solution, I 
would be happy to work with you as we move forward, because I 
don't disagree, a corporation can't know. And I do think the 20 
percent level as I said before is questionable, but at the same 
time there is some line and at some point a corporation should 
be required at some point in time, maybe not the immediate 
moment that they spend the money, maybe once a year, again 
there has to be some reasonable period of time when a 
corporation can say, at this period of time we are not owned by 
foreign entities.
    Again, we can argue with the definitions, but I am happy to 
work with you. This particular solution though takes a problem 
that have I think rightfully identified and instead of solving 
the problem it simply imposes the problem on another entity. I 
don't think that is the solution.
    Mr. Lungren. Would the gentleman yield?
    Mr. Capuano. Absolutely.
    Mr. Lungren. The other concern I have in there is this 
throws you into the area the Court has been very leery about, 
and that is prior restraint because when you call for a prior 
certification as we have discussed.
    Mr. Capuano. I am happy to work with you on it.
    Mr. Lungren. Okay.
    The Chairman. Any other discussions on the amendment to the 
substitute? If not, we will hear the question in the amendment. 
All those in favor say aye.
    All those opposed, no. In the opinion of the chair----
    Mr. Lungren. May I have a roll call vote?
    The Chairman. Will the clerk call the roll.
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. No.
    The Clerk. Mr. Capuano.
    Mr. Capuano. No.
    The Clerk. Mr. Gonzalez.
    Mr. Gonzalez. No.
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mr. Davis of Alabama.
    Mr. Davis of Alabama. No.
    The Clerk. Mr. Lungren.
    Mr. Lungren. Aye.
    The Clerk. Mr. McCarthy.
    Mr. McCarthy. Aye.
    The Clerk. Mr. Harper.
    Mr. Harper. Aye.
    The Clerk. Mr. Chairman.
    The Chairman. No. In the opinion of the chair, the noes 
have it--in the opinion the noes have it, and the amendment is 
not agreed to. We are now going to recess to go--we have three 
votes on the floor for those of you who don't know we are not 
voting tomorrow, but coming here after the last votes and if we 
can get done some people might get home tonight. We are on 
recess until the last vote which will probably be about another 
half hour.
    [Recess.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. I would like to call the meeting on House 
Administration back to order and ask if there are any further 
amendments. Ms. Davis.
    Mrs. Davis of California. Thank you. Thank you, Mr. 
Chairman. I appreciate your giving me this time at this 
particular time as well.
    We all like win-win ideas and I hope I have one for the 
committee to consider courtesy of the Sunlight Foundation. This 
one increases transparency while reducing administrative 
burdens on the FEC. Under current law, those who sponsor 
independent expenditures can handwrite the forms and send them 
as PDF by e-mail or fax them, the matter of the spending 
amount, and this counts as an electronic filing.
    But no matter how they are sent, handwritten forms can be 
hard to read and take longer for the FEC to make public on its 
Web site, that can take up to 48 hours for them to be able to 
do that. This amendment makes sure that expenditures in their 
communications over $10,000 will be filed electronically and in 
a way that the FEC can post right away on its Web site.
    The DISCLOSE Act makes sure that voters know who is behind 
the ads they see, and this would make sure that they have that 
information as soon as possible. With this amendment, 
organizations will file their forms electronically, using the 
FEC's Web site form, pre-downloadable filing software or using 
the FEC-approved commercial software. Actually many of them 
already do this and they are their complete forms shows up 
literally in minutes of being filed. This type of transparency 
won't be difficult to implement within 30 days since it merely 
expands and adopts a successful existing tool.
    I appreciate the fact that my colleagues have taken a look 
at this and I think that I would certainly like to hear from 
them, but I think that we have been able to structure something 
that really does work. We will definitely save money because it 
is a lot harder, it will be a lot easier than having who are 
hand transposing information. And the best part, of course, is 
that it is going to be correct, more likely so because it is 
filed in a way that comes directly from the forms that be done.
    The Chairman. I thank the lady. Any additional debate on 
the amendment to the substitute?
    Mr. Lungren. Mr. Chairman.
    The Chairman. Mr. Lungren.
    Mr. Lungren. Thank you, Mr. Chairman. This is the kind of 
reasonable, responsible, effective, simple-to-enforce 
legislation that I think we should have on a bipartisan basis 
and I congratulate the gentlelady for doing it. This makes 
sense, it is not that--it is not an undue burden, it just makes 
it more transparent and that is what I hope that we could be 
doing more of is trying to see where we can get greater 
transparency with ease. It is user friendly and it will help 
public disclosure and I support it.
    The Chairman. Is there any additional debate to the 
substitute? If none so ordered if not the question on the 
amendment, all those in favor signify by saying aye.
    Any opposed?
    The ayes have it and with that the amendment is agreed to.
    Is there any further amendments?
    Mr. Lungren. Mr. Chairman.
    The Chairman. Yes, Mr. Lungren.
    Mr. Lungren. I know the next one is in order Mr. McCarthy, 
he will be back shortly, so if we could go to number 8, which 
is my next amendment in order.
    The Chairman. The gentleman is recognized.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Lungren. Thank you very much, Mr. Chairman. This goes 
to the question of what many of us have, I think, reached at 
least some agreement on, and that is that we would like to 
have--we would like to have parties and the candidates of the 
parties closer together more responsible for one another. And 
what I mean by that is the laws that we have seen over the last 
number of years appear to have, whether intended or not 
intended, given a rise to a greater influence by those not 
connected directly to campaigns or connected to the parties. 
And I would like to see a closer connection. And one of the 
ways of doing that is allowing greater coordination.
    Members of the both parties on the committee have stated 
support for allowing parties to spend in coordination with 
candidates as one way to have a counterweight to the outside 
spending. The bill's current approach to this problem, in my 
judgment, is somewhat confusing introducing new language in 
definitions to an already difficult area of the law. And I 
really don't understand the need for eight pages of confusing 
language unless the majority could convince me otherwise. This 
amendment cleans up the problem with a simple repeal of the 
existing dollar amount limitation.
    It would replace sections 103 and 104 with repeal of 
limitations on the amount of political parties that their 
committees may spend in coordination of the candidates. We are 
not hiding anything, we are saying it is coordinated. The party 
and the candidate are coordinating. As it is now, there is some 
very severe restrictions in some cases; frankly, you can't even 
call the party and tell them, hey, don't do that, it is bad for 
me, that is, in essence, coordination under the law.
    This is a simple straightforward amendment in response to 
the problem that Democrats and Republicans on the committee 
recognize as an issue. I would hope that the committee might 
adopt this amendment, and with that I would yield back the 
balance of my time.
    The Chairman. Any additional debate on the amendment? I, 
myself, Mr. Lungren, I do like this concept, I just cannot be 
supportive of amendment in the bill, but I do want to and will 
continue to work with you to try to get this done at another 
time, and another place, in another way. So I----
    Mr. Lungren. I think I thank you.
    The Chairman. No, you should thank me because I will work 
with you. I am a party chairman, by the way, in the city of 
Philadelphia. I understand the burden has shifted so that 
people can influence an election by putting a whole lot of 
money into a State party, and then let them come on back and 
blow the limits that we are about to have. I do appreciate 
that, and I do thank you, but again, I reluctantly do have to 
be against this amendment. Is there any additional debate on 
the amendment? If not the question the amendment, all those in 
favor say aye.
    Any opposed, no.
    In the opinion of the chair the noes have it, and the noes 
have it. And the noes have it and the amendment is not agreed 
to.
    Any additional amendments?
    Mr. Lungren. Mr. McCarthy is still not here.
    The Chairman. It is okay, tell us what number.
    Mr. Harper. Mr. Chairman, I have an amendment at the desk.
    The Chairman. The gentleman is recognized.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Harper. Thank you. Mr. Chairman, this is will be 
amendment number 10. If there is anything that this hearing 
process has taught us, it is that this bill is far from clear, 
Mr. Chairman. The authors of the legislation say it does one 
thing; the experts say it does another; the majority's own 
witnesses have said it will be up to the FEC to decide what the 
language means. And yet another of the majority's witnesses say 
that it would be next to impossible for the FEC to promulgate 
regulations before the November elections.
    And a perfect example of that would be the fact that 
Citizens United was passed on January 21st of this year and we 
have yet to hear any word on how those regulations might have 
been adopted in regard to that. But the bill as written is 
going to impose civil and criminal penalties on speakers 
without them having any notice that their behavior may be 
against the law. What that means is that rather than exercising 
their first amendment rights, speakers are just going stay 
silent, this will have a chilling effect.
    Making this bill effective in 2011 insures adequate time 
for instructions and regulations to be developed and court 
challenges to be heard without the fear that speech will be 
chilled due to this unclear legal obligations that are set 
forth. It also ensures that the bill will not be used to 
manipulate the outcomes of the 2010 elections. And I do urge my 
colleagues to adopt and support this.
    Mr. Lungren. Will the gentleman yield for a moment?
    Mr. Harper. I will.
    Mr. Lungren. We have had a number of elections rather 
fiercely contested primaries in the last couple months. In 
fact, this week is very instructive. Is the gentleman aware of 
any undue influence from corporations or unions utilizing this 
new freedom that they are have.
    Mr. Harper. Reclaiming my time, I am not aware of an 
example, things have seem to have worked appropriately.
    Mr. Capuano. Would the gentleman yield for a question?
    Mr. Harper. You are aware of some issues. I will yield.
    Mr. Capuano. How would you know?
    Mr. Harper. Well, we have heard no reports.
    Mr. Capuano. No reports, but nobody is required to disclose 
anything at this point.
    Ms. Lofgren. Actually, I think there are some records if 
the gentleman would yield.
    Mr. Harper. I would be glad to yield, Ms. Lofgren.
    Ms. Lofgren. I am not an expert on what is going on in 
Arkansas, but I understand there have been some sort of a 
shadowy, negative advertising that is not disclosed and not out 
of the political parties, but that is secondhand knowledge on 
my part, and I thank the gentleman for yielding. I think, 
clearly, if the gentleman would continue to yield then I won't 
ask for my own time.
    Mr. Harper. If I may, reclaiming my time, if I may finish 
up.
    Ms. Lofgren. I am sorry, I didn't realize I interrupted.
    Mr. Harper. This is clear that it appears to me that the 
only thing this will do is create--certainly create confusion 
for the 2010 elections, and I think it will have a negative 
impact on these, and we do know that ultimately at some point 
the FEC will put forth its regulations on this particular bill 
if it is passed. And there is certainly nothing to be gained by 
rushing forward. This is a situation where we would be better 
off if we allowed the FEC time to do what they need to do. We 
know what we have been told, that there is no way they will 
have the regulations in place by this November election. With 
that, I yield back.
    The Chairman. I thank the gentleman. Any additional debate 
on the amendment?
    Ms. Lofgren. Mr. Chairman, I will be brief because I know 
that there are other amendments but I think--I hope that this 
gets enacted and goes into effect as soon as possible. I just 
have a completely different viewpoint and I think our varying 
viewpoints on the effective date of the Act probably reflect 
our viewpoint of the decision itself.
    I think that the lack of disclosure will have a negative 
impact on elections, and I think most of the American people 
share that view. And so I really--I hope that we can get this 
markup done today and that we can take it to the floor and that 
we can enact it and the President and the Senate can act, and 
the President can sign it and we can get this done so it is in 
place for this election as the American people hope, and I 
yield back.
    The Chairman. I thank the gentlelady, any additional debate 
on the amendment to the substitute?
    Mr. McCarthy. Thank you.
    The Chairman. Mr. McCarthy.
    Mr. McCarthy. I yield to Mr. Lungren.
    Mr. Lungren. I was curious as to if anyone knows whether 
organizations like the Sierra Club, the National Rifle 
Association, groups like that, which I believe are covered 
under provisions of this law, would have their speech chilled 
in any way between now and the election if, in fact, we don't 
have clarification by way of regulations.
    And, you know, we keep talking about corporations, and I 
remember when we had everybody testify in that first panel, 
actually, we looked it up and every one represented what was 
legally a corporation. I mean, I think we better understand, we 
are not just talking about big, you know, Federal contracting 
corporations in America, we are talking about little types of 
associations that happen to be incorporated, or I guess you 
could call National Rifle Association a large one. Sierra Club 
is a large one. We look left and right, and I think we ought to 
understand what the vagaries of the law would create here if 
you have this uncertainty. And there are people who do connect 
with those organizations because of a shared sense of purpose 
or a political idea.
    And we ought to be aware that we are talking about a whole 
host of different kinds of associations that yes, are 
corporations under the law, but they are in the minds of most 
people associations. And if we create an uncertainty between 
now and the Election Day, they may very well not have the 
opportunity to express their First Amendment rights as 
suggested by the Supreme Court. So I thank the gentleman for 
yielding and I just hope that we will understand what happens 
if we in good conscience pass this knowing that the FEC is not 
going to have any opportunity to truly come up with regulations 
to advise people. So I thank the gentleman for yielding, I 
yield back.
    Mr. McCarthy. I yield back the balance of my time.
    The Chairman. I thank the gentleman, any additional 
amendment, Mr. Capuano.
    Mr. Capuano. I want to make clear I associate myself with 
the comments of Ms. Lofgren, because I do want this enacted 
quickly, and I would love to work out my misclarifications or 
miscommunication in the bill as we are trying to do. I mean, 
any bill you pass always has some questions left when it is 
done. But I want to be clear from my perspective, as one Member 
of this House, if I could find a way to legally and 
constitutionally prohibit all outside groups from participating 
in my election, I would.
    I think the elections should be between the candidates and 
the voters period. I can't find that way. And so therefore, if 
this has the unintended consequences of chilling out some 
people, I hope it chills out all, not one side, all sides. I--I 
hate the concept of faceless, nameless people who don't live in 
a district from participating. It is the law, it is the 
Constitution, I can complain all I want, but that is the way it 
is. I just want to be clear from this perspective I have no 
problem whatsoever if anybody wants to work with me to find a 
way to keep everybody out, including the parties--including the 
unions, Parties--how do you say it that in English? Parties. If 
I could find a way, I would do it.
    Mr. Lungren. Is that where you park the car?
    Mr. Capuano. Yes, it is as a matter of fact. The 
stenographer is going to have--there is an R in there 
somewhere. We don't need that extra letter either, in our 
language. So I just want to be clear about that. I think there 
is a respectful difference here, but I am not trying to hide 
from it one bit, so if we could keep all outside entities out 
of every election, if I could find a way, I would do it and do 
it happily.
    The Chairman. I thank the gentleman. Is there any 
additional debate on the amendment to the substitute? Hearing 
none, the question on the amendment all those in favor say aye.
    Those opposed say, no. In the opinion of the chair the noes 
have it.
    Mr. Harper. Mr. Chairman, I would request a recorded vote.
    The Chairman. I ask the clerk to call the roll please.
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. No.
    The Clerk. Mr. Capuano.
    Mr. Capuano. No.
    The Clerk. Mr. Gonzalez.
    Mr. Gonzalez. No.
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mr. Davis of Alabama.
    [No response.]
    The Clerk. Mr. Lungren.
    Mr. Lungren. Aye.
    The Clerk. Mr. McCarthy.
    Mr. McCarthy. Aye.
    The Clerk. Mr. Harper.
    Mr. Harper. Aye.
    The Clerk. Mr. Chairman.
    The Chairman. No.  The noes are 5, the ayes are 3 the 
amendment does not pass.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Any further amendments? Mr. McCarthy.
    Mr. McCarthy. Thank you, Mr. Chairman, sorry for the delay. 
This amendment is number 6, sorry for the delay.
    The Chairman. I recognize the gentleman.
    [The information follows:] 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. McCarthy. Thank you, Mr. Chairman. This kind of 
clarification amendment, this bill's current language requires 
corporations to certify that they don't violate any of the 
foreign national provisions of the legislation before they make 
any donation, contribution or expenditure. While the majority 
added language in the manager's amendment that stated nothing 
in this Act should be construed to prohibit a corporation from 
creating a PAC, the new language does nothing to change the 
requirement that an organization must certify they don't 
violate any of the foreign national provisions before they can 
act.
    Under the language of the manager's amendment, they may 
create a PAC but without the proper certification the CEO of 
the company can be prosecuted for making contributions or 
expenditures from the PAC. And this is true for every PAC, not 
just those who status is affected by the new definition of 
foreign national.
    Moreover, the manager's amendment does nothing to change or 
define the word ``donation.'' The word is not defined in the 
existing statute, and can easily be interpreted as requiring 
prior certification for any contribution to a charitable or 
civic organization, not to mention a contribution to a State or 
local campaign or candidate.
    This amendment would narrow the scope of the bill to where 
it belongs, money spent from general Treasury funds in 
connection with the Federal election. It would provide that 
charitable and civic donations as well as PAC contribution and 
expenditures may be made without a prior certification 
regarding foreign national status. This speaks to something 
that I think all members would argue is a problem, and I urge 
my colleagues to adopt this amendment.
    The Chairman. I thank the gentleman. This Republican 
amendment could align with our manager's amendment. Since the 
PACs are restricted to only accept contributions from American 
citizens, there is less of a need for prior certification, and 
there is less of an argument that requires prior certification 
for charitable and civic donations to be deemed unnecessary, to 
protect the American elections from foreign influence. This 
amendment is a commonsense improvement to the bill, and I 
support it and I ask my colleagues to vote for it.
    Mr. Capuano. Don't get used to it.
    The Chairman. Any additional debate on the amendment? 
Hearing none in favor of the amendments signify by saying aye.
    Any opposed, no. None so ordered the amendment is agreed 
to.
    Okay. Any further amendments?
    Mr. McCarthy. Further amendment, I believe this is number 
7. While I am on a roll, Mr. Chairman, I thank you, currently 
union members serving in the Federal Government have the 
opportunity to take part in a government-administered payroll 
deduction program to pay their union dues. With the recent 
changes in the law, funds administered through this government 
program may now be used for political expenditures.
    Mr. Chairman, one of the most consistently followed 
principles across our government is that government funds 
should not be used to subsidize political activity, and 
government employees should not be involved in political 
activity on the government's time.
    Now principle is violated if the government collects and 
distributes funds that may be used for political expenditures. 
This amendment would provide that no funds obtained by a union 
through a government administered payroll deduction program may 
be used for political expenditures, I urge its adoption.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Any additional debate on this? Ms. Lofgren.
    Ms. Lofgren. Mr. Chairman, I would just note that it is not 
the government's money, it is the payroll deduction of the 
employee, the union member and I think that this would really 
discriminate against labor unions when the bill has gone to 
great lengths to treat corporations and labor unions the same 
and I would urge opposition to the amendment.
    The Chairman. Any additional debate to the amendment? The 
only concern I would have with this is if I am a painter, and 
have a contract to paint this room, and I paint this room and 
the United States Congress pays me, and I am a union painter 
that would then say that I can't make any contributions to 
anybody who runs for office the way I read this. And of course, 
we are constantly held to free speech rights belonging equal to 
unions as to corporations. So I don't--I don't agree with this 
amendment.
    Mr. McCarthy. Well, Mr. Chairman, I appreciate your comment 
and the intent maybe I can work with you further on it. It is 
not to deny the person, it is just to not have government 
collecting and using government money to collect that, as much 
as we can't have the private sector be able to do it as well. 
So maybe there is some better language we can use to protect 
that.
    The Chairman. I would love to work with the gentleman to do 
that. Thank you.
    Any additional debate on the amendment? If not, the 
question is on the amendment, all those in favor say aye.
    Any opposed, no. In the opinion of the chair--I took you 
for granted.
    Mr. McCarthy. You never said.
    The Chairman. The question is on the amendment. All those 
in favor say aye.
    Those opposed say, no. In the opinion of the chair the noes 
have it. The noes have it.
    Mr. McCarthy. Mr. Chairman, can I have a roll call vote?
    The Chairman. Request a roll call vote? Will the clerk 
please call the roll?
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. No.
    The Clerk. Mr. Capuano.
    Mr. Capuano. No.
    The Clerk. Mr. Gonzalez.
    Mr. Gonzalez. No.
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mr. Davis of Alabama.
    [No response.]
    The Clerk. Mr. Lungren.
    Mr. Lungren. Aye.
    The Clerk. Mr. McCarthy.
    Mr. McCarthy. Aye.
    The Clerk. Mr. Harper.
    Mr. Harper. Aye.
    The Clerk. Mr. Chairman.
    The Chairman. No. The noes are 5 the yeas are 3, the 
amendment does not pass.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Any additional--any further amendments?
    Mr. McCarthy. Mr. Chairman, I have an amendment at the 
desk, number 9.
    The Chairman. The gentleman is recognized.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. McCarthy. I want to go back to my earlier one, this is 
a clarifying one, consistency, you are going to like this one, 
I am introducing this amendment in the interest of consistency 
and clarity within the law. As we all know the current 
threshold for candidate PACs and political committees to 
itemize contributions is $200. Rather than creating a new 
arbitrary number further convoluting our already muddled 
campaign finance law, this amendment seeks to provide a uniform 
number after which every donor will have to itemize disclosures 
across the campaign finance system. Groups or individuals 
should not have to hire a lawyer to participate in the 
electoral process, if other members of this committee have 
reasons why we should be creating a new itemized threshold 
outside the current law I would be interested to debate and 
hear it, but absent that I think we should actually adopt it. 
Adopt the standard already in use for candidates in political 
committees, making the system easier for individuals to 
understand.
    The other rationale is part of our debate and reason for 
the bill is greater transparency. This would allow the current 
consistency of $200 to be consistent throughout. And I think 
this amendment will simply and clarify and I urge your 
adoption.
    The Chairman. I thank the gentleman. Any debate on the 
amendment? Mrs. Davis.
    Mrs. Davis of California. Just to clarify, you are talking 
about just the minimal that is listed, you would certainly list 
anything in addition, anything over that.
    Mr. McCarthy. Currently, the bill wouldn't itemize until 
you hit $600, but you or I would itemize at 200. So I am just 
saying let's keep it at the greater transparency within this 
bill at 200 instead of raising that to 600.
    The Chairman. The only problem, sir, I have with that is 
that it punishes the small people. If I have a little civic 
association and I want to give them $500 to do a trash cleanup 
or beautification in the neighborhood, they would then have to 
declare that. And anything over the $200 limit they would have 
to declare that, that is why we put the $600 limit because a 
lot of these small groups don't request large money. Once they 
request the large money, then they can't contribute to a 
candidate.
    Mr. McCarthy. All we are saying is when you itemize the 
contribution, you are reporting it. The FEC decided that $200 
was all of our limit. Now we are crafting a bill that says we 
need greater transparency because of what is going on, and we 
need to have this bill done before the next election. So the 
people to know. I listened to Mr. Capuano making sure. All I am 
saying is in this bill that you are voting for $600, why 
wouldn't we keep the same limit that people decided upon 
everywhere else? What we are doing with the bill is raising it 
higher so people can do more. I think greater sunshine is 
always better and we already have it out there at 200. So why 
would we put one level somewhere else and other people at a 
different level? 200 has been decided, it is easier for people 
to understand because it is consistent throughout.
    The Chairman. Mr. Capuano.
    Mr. Capuano. Mr. Chairman, I think the gentleman makes some 
good points, but I am glad to hear that after every Republican 
witness who we have had at these committees basically argued 
for no disclosure whatsoever. I am glad to hear that you are 
for disclosure, does that mean you plan on voting for the final 
bill?
    Mr. McCarthy. As you know we are marking it up. How do you 
know what the final bill looks like? What I am telling you 
right now, I am willing to work with you and make this bill 
better. But in that same hearing, I brought this issue up. We 
had that discussion, and all I am saying to you if we have 
found that $200 is good for all of us----
    Mr. Capuano. Well, reclaiming my time. I understand your 
argument, it is a fair argument and raises some good points, 
but it just seems a little disingenuous if on one hand you 
argue against all disclosure, and on the other hand you argue 
for more. And I didn't reach this compromise number so don't 
get me wrong, I would love between now and the time this bill 
comes to the floor to find out where the numbers came from.
    I don't--I think it is a fair point, don't get me wrong. At 
the same time I am a little hesitant to vote for the amendment 
at this point in time because I would love to know if the 
gentleman is in favor of disclosure, which if that is what he 
is, I am with him. But if he's not for disclosure and is only 
playing a political game, that raises a few concerns. I guess I 
will have to wait until the final bill to see----
    Mr. McCarthy. No, no, no, no, no, no, no. If the gentleman 
would yield just for one second.
    Mr. Capuano. I certainly would.
    Mr. McCarthy. Part of the concept, I think you are marking 
up the bill and making the bill better. If I am proposing an 
amendment that clarifies it at 200 that gives it greater 
disclosing, I think that shows. If I would not vote for my own 
amendment, then I would be doing what you are saying. I will 
gladly tell you I am voting for this amendment. I think it is 
consistency, it is clarity and it is not confusing, and it is 
greater openness. $200.
    Mr. Capuano. Reclaiming my time, then I guess I would 
probably vote against the amendment now, but if by the time it 
gets to the floor no one knows we have several more 
opportunities to amend this bill before it gets to the floor, I 
will be happy to work with them on a consistency item to make 
sure that we are all for the same degree of disclosure.
    Mr. McCarthy. If the gentleman would yield. I respect your 
comments, but as you know, getting amendment on the floor in 
this Congress is much more difficult than using the committee 
process to improve it because you could maybe get it amended 
back the other way. But getting an amendment through the Rules 
Committee I have not been so successful this term.
    Mr. Capuano. Well, reclaiming my time. I wasn't successful 
for 8 years. And so hence, I understand and I feel the 
gentleman's pain. Nonetheless, I would be happy to coauthor an 
appropriate amendment at the Rules Committee, once we decide 
whether we really are for disclosure or not and we can get an 
answer--I can get an answer that tells me where the $600 came 
from because the gentleman does raise good points, but I also 
have to withhold my support at the moment until we can find 
more common ground.
    Mr. McCarthy. Just one last point to the gentleman.
    Mr. Capuano. Go right ahead.
    Mr. McCarthy. It is much easier to pass an amendment inside 
this committee than it would be on the floor. I would gladly 
respect your vote on the floor, but if we could take politics 
out of this and--I know we smile--if we could think about 
crafting any bill and take this out of it, the more consistency 
we have, the better it is to understand to the American public. 
If the American public has already said out there and there has 
been many debates long before the FEC has decided that $200 is 
the itemized number, we are creating confusion to everybody 
else if, in other predicaments were making it 600. That is 
raising it instead of lowering it.
    Mr. Capuano. Reclaiming my time. The people who are filing 
this are not filing 200, $200 applies to us, not to them. So 
therefore these are new filings and there is no confusion in a 
new filing. That, actually, I would think they should be happy 
that they get 600 bucks, I actually thought you'd come in with 
an amendment to raise it to 6,000. That would have been more 
consistent with the arguments I heard during the hearings, and 
you might have gotten my vote but not now.
    The Chairman. Is there any additional debate on the 
amendment to the substitute? If not the question is on the 
amendment, all those in favor signify by saying aye.
    All those opposed, no.
    Mr. Capuano. Not at the moment.
    Mr. McCarthy. I would ask for a roll call.
    The Chairman. I ask the clerk to call the roll, please.
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. No.
    The Clerk. Mr. Capuano.
    Mr. Capuano. No.
    The Clerk. Mr. Gonzalez.
    [No response.]
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mr. Davis of Alabama.
    [No response.]
    The Clerk. Mr. Lungren.
    Mr. Lungren. Aye.
    The Clerk. Mr. McCarthy.
    Mr. McCarthy. Aye.
    The Clerk. Mr. Harper.
    Mr. Harper. Aye.
    The Clerk. Mr. Chairman.
    The Chairman. No. The nays are 4 the yeas are 3, the 
amendment does not pass. Any further amendments?

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. McCarthy. I have got one more to try at you. I have two 
more, just one more. This is 11 A, one of the concerns brought 
up at our latest hearing with this legislation unintentionally 
regulates speech on the Internet.
    Ms. Lofgren. Would the gentleman yield for clarification.
    Mr. McCarthy. Sure.
    Ms. Lofgren. That is the one that begins with the end of 
Title 1.
    Mr. McCarthy. Let me verify what we are looking at. Yes.
    Ms. Lofgren. Thank you very much.
    Mr. McCarthy. You have it? Okay. It is 11(a). The Internet 
is one of the greatest opportunities for citizens to voice 
their opinion in a new kind of digital town square. Blogs, 
online news sources, and e-mail newsletters are great ways for 
people to be able to communicate within their communities and 
in turn with their elected Representatives. We should be 
supporting and encouraging the free and unfettered flow of 
ideas that can help us serve our constituents better.
    While I appreciate the majority's attempt to address this 
issue in the manager's amendment, I think it might fall short a 
little. The manager's amendment tries to deal with this issue 
by indirectly trying to define and describe the unique 
circumstances of blogger interaction with elected officials in 
section 103. However, not only is this language unclear, it 
does not cover the other possible sections in the bill that 
this could become a problem, including sections 201 and 214. I 
think the better approach would be to address this issue 
directly rather than indirectly, which is the reason for this 
amendment.
    The amendment adds language which states: ``A communication 
which is disseminated to the Internet shall be treated as a 
form of general public advertising under this paragraph unless 
the communication was placed for a fee or on another person's 
Web site.''
    I urge the committee's adoption.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. The FEC is made aware of the amendment and 
from their read did not raise any major concerns. Several 
outside groups have lobbied over the years to finally have this 
provision put in law, and expressed an interest to have this 
included in the manager's amendment.
    I support the amendment and I also encourage the members to 
support it as well.
    Ms. Lofgren.
    Ms. Lofgren. Mr. Chairman, I just wanted to say I agree 
with this amendment. I think it is a good addition, and really 
the logic of it is--the barrier to entry on Internet 
advertising is very low, and it is one of those areas where 
whether you're a giant corporation or an 18-year-old with a 
laptop, I mean you really have somewhat equivalent 
opportunities to create content.
    I think this is a very sensible amendment and I am glad you 
offered it and I support it.
    The Chairman. Any additional debate on the amendment?
    Mr. McCarthy. Well, I thank you for the kind words and--no, 
I take it. Just relook at my last amendment, too.
    The Chairman. All those in favor indicate so by saying aye.
    Opposed, no.
    The ayes have it. The amendment is agreed to.
    Mr. Lungren. Mr. Chairman, I have another amendment, 
amendment No. 13.
    The Chairman. The gentleman is recognized.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Lungren. When we had the discussion earlier about the 
difference between unions and corporations, the argument was 
made by the gentleman from Alabama that we had a different 
situation involving someone who was a union member, a union 
which was of a contractor as opposed to a union of Federal 
employees. And this amendment is drafted to talk about a labor 
organization representing an employee of such organization 
which would thereby be restricted.
    In other words, if, in fact, we think that there is undue 
influence from a Federal contractor, then this would say a 
labor organization representing that contractor would seemingly 
be in the same situation; that is, that that union would only 
receive a benefit if, in fact, the contract was let, and 
therefore the same sort of potential corruption.
    And I am not one that is satisfied that that is corruption 
of the level that the Supreme Court would find, but if, in 
fact, that is a given under this bill, then in fact a labor 
organization representing the employees of a quote-unquote 
``banned corporation'' frankly stand in the same shoes as that 
banned corporation. And in this case I would think that you 
have the same argument of interest and therefore the same 
argument of potential conflicts.
    This is not a generalized idea of unions negotiating as 
taxpayer or public employees. This goes to the unions 
representing employees of the contractors that we have decided 
could provide that kind of a conflict of interest--well, more 
than a conflict of interest--that type of potential corruption. 
And in this case, all I am asking is that the union be treated 
the same as the corporation because essentially it stands in 
the same shoes.
    And with that, I yield back the balance of my time.
    The Chairman. Is there any additional debate on this 
amendment?
    The only issue I have, sir, is that we just got this right 
now, like right now. I understand your concerns are sometimes 
you don't get things too quickly, as you stated, but we just 
looked at this right now to look at section 317(a) in the 
Federal Elections Campaign Act and go through all that. I just 
think that at this particular time we have no problem trying to 
look at this work with you again, and trying to make sure we 
can get it done and trying to be supportive of it. But right 
now, none of us have had any chance to look at this.
    Mrs. Davis.
    Mrs. Davis of California. Mr. Chairman, just quickly, I am 
trying to think through all these big--General Dynamics, for 
example, which contracts with the Federal Government to build 
ships, and they have union steelworkers there. Are you saying 
that you would have difficulty with the steelworkers who, by 
virtue of having jobs, I guess, somehow would be part of the 
contract, that you feel would be included in this bill? Is that 
what you're talking about? Because I am a little confused----
    Mr. Lungren. Yes. What I am saying is this: If in fact the 
underlying proposition is that by virtue of being a government 
contractor, you therefore subject the public at large to the 
possibility of corruption such that we can limit this type of 
political speech that is otherwise allowed under Citizens 
United, that same argument, it seems to me, would be sufficient 
with respect to the labor organization which benefits in like 
manner as the contractor would.
    I mean I think--again, I am not one that necessarily 
believes that this is going to pass the constitutional 
question, but if in fact the concern about corruption is valid, 
then it would be just as valid with respect to the labor union 
that benefits just as directly as the contractor does because--
--
    Mrs. Davis of California. I don't think it is a direct 
correlation in that sense. I am trying to understand----
    Mr. Lungren. I understand what you are saying but----
    Mrs. Davis of California. Thank you. I think we can look at 
it now that we have it, but if that's your line of thinking I 
wanted to double-check that. Thank you.
    The Chairman. Is there any additional debate on the 
amendment to the substitute?
    If not, the question is on the amendment.
    All those in favor signify by saying aye.
    Those opposed, no.
    Mr. Lungren. Mr. Chairman, I ask for a roll call.
    The Chairman. Will the Clerk call the roll, please?
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. No.
    The Clerk. Mr. Capuano.
    Mr. Capuano. No.
    The Clerk. Mr. Gonzalez.
    [No response.]
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mr. Davis of Alabama.
    [No response.]
    The Clerk. Mr. Lungren.
    Mr. Lungren. Aye.
    The Clerk. Mr. McCarthy.
    Mr. McCarthy. Aye.
    The Clerk. Mr. Harper.
    Mr. Harper. Aye.
    The Clerk. Mr. Brady
    The Chairman. No.
    The noes are four, the ayes are three. The noes have it. 
The amendment is not agreed to.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Are there any further amendments?
    Ms. Lofgren. Mr. Chairman.
    The Chairman. Ms. Lofgren.
    Ms. Lofgren. I have three amendments. The first one is a 
technical amendment, retitling subtitles A, B and C, and also 
changing the words ``any campaign'' to ``the candidate's 
campaign'' on Page 21, line 17. I think these are technical 
amendments and hopefully we can do it by voice.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Lungren. Mr. Chairman, on this side we would support 
these technical amendments.
    The Chairman. I thank the gentleman.
    Any additional debate on the amendment to the substitute?
    Hearing none, all those in favor signify by saying aye.
    Opposed, no.
    The ayes have it. The amendment is agreed to.
    Ms. Lofgren. Mr. Chairman, I have an amendment, Lofgren 
amendment No. 2, that relates to political Robocalls.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Lofgren. We had a hearing in the Election Subcommittee 
in the last Congress, and I will never forget Virginia Foxx 
talking about her wonderful experience of anonymous in-the-
middle-of-the-night Robocalls from people pretending to be her 
campaign, and undisclosed. And we put together a bill to 
require, at the beginning of the political Robocall who was was 
making the call. We also in the amendment require that major 
funders also identify themselves, using the same definition as 
is the case in the rest of the bill.
    However Mr. Lungren's staff made a good point; that if it 
is a long list, it shouldn't necessarily be at the beginning of 
the bill. And I agree with that. It could be very awkward. So 
that section would not have to be at the beginning of the bill, 
but--of the call, but it needs to be in the call.
    And I wanted to mention Congresswoman Melissa Bean, who 
also has been very active in promoting this, and Mr. Lungren 
and I have talked about this for some time as well. I don't 
know if he--I hope he is in support of the amendment, but 
certainly he has had a great interest in this.
    One of the concerns expressed during the hearing and in our 
brief discussions was we don't want to do anything that would 
have an adverse impact on telephone townhalls. And in talking 
to the lawyers and in looking at the amendment, I am confident 
that this would not have any impact on telephone townhalls 
because it has to do with political campaigns, and the 
telephone townhalls are official speech that we are doing.
    So I offer this amendment. I hope that we can support it. I 
think certainly the mischief that is done is unfair to voters. 
I remember the testimony we had of repeated calls that were 
made at 2:00 and 3:00 in the morning, anonymous calls from 
people purporting to be the candidate. And as you can imagine, 
by the time of the election, you have been woken up three or 
four times in the middle of the night, you are not inclined to 
support that candidate.
    That kind of mischief is really not what elections should 
be about, and this would prevent it. And I think certainly the 
victims of this kind of fraud are on both sides of the aisle, 
but the real victims are the voters who are misled and abused. 
So I hope that this amendment can gain support.
    And I yield back, Mr. Chairman.
    The Chairman. I thank the lady.
    Any additional debate on the amendment?
    Mr. Lungren. Mr. Chairman.
    The Chairman. Mr. Lungren.
    Mr. Lungren. Mr. Chairman, just briefly. On the floor 
yesterday, I had a chance to look at at least what purported to 
be the amendment at that time. Subsequently, through my staff, 
I indicated my concern about requiring upfront not only to 
identify the source of the call but also the major 
contributors, and I appreciate the fact that I understand you 
have offered it so that that is not the case----
    Ms. Lofgren. That is correct. The maker of the call would 
have to be identified at the beginning, but the major funders 
would be at the end.
    Mr. Lungren. So I appreciate that change.
    I still have two concerns. And one I am not sure we can 
ever get around, and that is, having been subjected to 
suppression calls on Election Day that I believe were effective 
but technically did not state support of a candidate or 
opposition to a candidate, this doesn't really help us with 
that, and I am not sure we can do that. So that is why I would 
like to see if we would work a little more than that.
    But the other thing in terms of tele-townhalls, I was not 
only referring to those of our official, but tele-townhalls are 
also utilized in the political context. And I think they are of 
benefit both to the candidate and to the electorate.
    The definition utilized in this, in your last several 
lines--and, again, I don't have a copy of it in front of me--it 
seems to me would implicate this as covering tele-townhalls; 
and it is just because in doing tele-townhalls, you record two 
messages: one for people who are at home; one for people who 
are not. And the one for people at home, it is a recorded 
message; they can't immediately talk to the recorded message, 
but if they stay on the line, then they engage you, I think, 
under the definition that is included here.
    So I would like to work to try to clarify that, and so I am 
going to withhold support of it at this time. I do understand 
where you are going. I happen to believe that it makes good 
sense to identify people who are calling in Robocalls. I just 
have a problem with some of the language here and some of the 
concepts. So hopefully we can work in the future----
    Ms. Lofgren. Would the gentleman yield?
    Mr. Lungren. I would be happy to.
    Ms. Lofgren. I hope that we can adopt this today, but I 
certainly will continue to discuss this, because I think as it 
is written now, if it is a political Robocall, you would have 
to identify yourself.
    Mr. Lungren. You mean a political--a tele-townhall?
    Ms. Lofgren. Yes. And I think that is not too great a 
burden, but I mean we can continue to talk. I understand that 
there are certain types of suppression Robocalls that this 
would not necessarily cover, and those are bad. But I hope that 
we wouldn't continue not to do something good because we can't 
do everything.
    Mr. Lungren. You see, the whole purpose of the tele-
townhall is different than a Robocall in that you are trying to 
at least----
    Ms. Lofgren. No. I mean we all do that----
    Mr. Lungren. But I mean you are trying to get people to get 
on. And it is just the format in that situation, it seems to 
me, is somewhat different than a Robocall, because the purpose 
of the tele-townhall is to identify who you are. It doesn't 
necessarily fit that same formula.
    Ms. Lofgren. I understand that, but if the gentleman would 
continue to yield.
    Mr. Lungren. Yes.
    Ms. Lofgren. On the message that you record--actually the 
real issue is the messages that are left because there would 
not be a dialogue. And in the recording of the message that is 
left, you would have to identify who you are making the call, 
which I think we generally do anyhow----
    Mr. Lungren. Which is what you want to do anyway.
    Ms. Lofgren. Which you want to do anyhow. So I hope that we 
can adopt this. Let's continue to talk if there are refinements 
that can be made. I don't think we are disagreeing on what we 
want to accomplish, honestly.
    I thank the gentleman for yielding.
    The Chairman. Mr. McCarthy.
    Mr. McCarthy. I was in the hearings last time we did 
Robocalls, too. I would be willing to work with you on this. I 
mean, you may have seen it on the floor, but I am just now 
seeing it. And instead of doing something in a very hurried 
method, I mean I will tell you I will work with you. I think 
people need to identify on these two. And the way technology is 
being used, I would just ask if we could hold this off and move 
forward, and we can work with you on an amendment for the 
floor, doing it jointly, or how we move forward with it.
    I yield back.
    The Chairman. I thank the gentleman.
    Any additional debate on the amendment to the substitute? 
If not, the question is on the amendment.
    All those in favor, say aye.
    Opposed, no.
    The ayes have it. The ayes have it. The amendment is agreed 
to.
    Mr. McCarthy. Can we ask for a roll call?
    The Chairman. Certainly. The Clerk will call the roll, 
please.
    Mr. McCarthy. All right, forget it.
    The Chairman. All right, forget it.
    Any further amendments?
    Ms. Lofgren. I have one more amendment.
    The Chairman. Ms. Lofgren.
    [The information follows:] 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Lofgren. The amendment has to do with changing the 
threshold amount for contractors, government contractors, being 
covered under the act. In the measure before us it is 
currently, I believe, at $50,000, and this amendment would 
increase that threshold amount to $7 million. And here is the 
reason why: The amendment--the concern that we have is about 
large corporations having an undue influence--the concern I 
have--in anonymous contributions and impacting campaigns to the 
detriment of the American people.
    I am not actually concerned that small businesses are going 
to engage in that activity for a number of reasons. For one, 
they don't have the cash to do it. And the small businesses in 
America are really part of the mom-and-pop voters. It is not 
the faceless, anonymous large corporations that have caused our 
concern. The $7 million is what is used to define small 
businesses in the SBA. That is why I have suggested that as a 
threshold.
    I think this improves the bill, and I hope that we can all 
support it. And I yield back.
    The Chairman. Is there any additional debate on the 
amendment to the substitute?
    Hearing none, the question is on the amendment.
    All those in favor, signify by saying aye.
    Those opposed, no.
    In the opinion of the Chair the ayes have it. The ayes have 
it and the amendment is agreed to.
    Ms. Lofgren. Thank you, Mr. Chairman.
    The Chairman. Any further amendments? Mr. Capuano.
    Mr. Capuano. Mr. Chairman, I have a couple of amendments. I 
may as well start with amendment No. 1, the Fair Elections Now 
Act.
    [The information follows:] 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Capuano. This amendment is an addition to the bill. And 
the truth is this bill, though I support it, disclosure is a 
good thing, transparency is a good thing, it really doesn't get 
to the heart of the matter. And the heart of the matter to me 
is the fact that so many of us have to spend so much time 
raising so much money that we leave all kinds of impressions 
with the public----
    Mr. Lungren. Mr. Chairman, may I reserve the right to 
object on this?
    The Chairman. Yes.
    Mr. Capuano. We leave so many impressions with the public, 
I think it takes away time that we as Members can be using more 
valuably responding to constituents, learning bills, debating 
and discussing with each other.
    It models on the Connecticut portion. This is a cut-and-
paste from a bill filed by Mr. Larson. I believe it has over 
100 cosponsors, including myself, that would provide public 
financing for certain qualified candidates. It is a minimum 
level. It is voluntary. It is not required. People can opt out 
of it anytime they want. They don't have to join in.
    And it requires people--if they choose to join, it requires 
people to keep their contributions relatively low so they can 
do other things, and it matches contributions of $100 or less 
at a 4-to-1 ratio. It is not the perfect bill, in my 
estimation. I would like to play with this myself as we move 
forward.
    Nonetheless, the concept of getting us off of the money 
mouse wheel is something that I would pretty much make almost 
any compromise I could to do. I know that some people measure 
their manhood or womanhood by how much money they can raise. I 
have no such self-illusions. I don't worry about those things. 
I am very comfortable with who and what I am. I never raised 
another nickel in my life for my own campaign.
    So, Mr. Chairman, that is what this is. I think most 
members here know what this bill does. They know the concept. 
And therefore I don't think I have to take any additional time 
to explain it, except to state very clearly that unless we do 
this, we will constantly be on the money train; the public will 
always have suspicions about our motivations; and we will not 
be able to focus on the things that I think the founders of 
this country wanted us to focus on, and that was not raising 
money.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    The Chairman. The gentleman will state his point of order.
    Mr. Lungren. I will withdraw my point of order, Mr. 
Chairman. I will just ask time to debate the amendment.
    The Chairman. Yes. Any additional debate on the amendment? 
Mr. Lungren.
    Mr. Lungren. Can the gentleman tell me what the cost of 
this would be?
    Mr. Capuano. No way to tell until we have the number of 
people that are involved in it. It may cost nothing if no one 
opts in; but I will, so it is going to cost you something.
    Mr. Lungren. Well, aren't we required to score bills when 
we come to the floor and find out how to pay for them?
    Mr. Capuano. If you vote for this bill and it gets on the 
floor, we will get it scored before you vote on it.
    Mr. Lungren. No, but is there any rough estimate of what 
the cost would be----
    Mr. Capuano. I don't have it at my fingertips, no.
    Mr. Lungren. What is the amount that each candidate could 
get?
    Mr. Capuano. The totals, I believe, are in the 300- or 
$500,000 per general election range. That is at a maximum. It 
wouldn't necessarily be that.
    Mr. Lungren. And this is public funding; correct?
    Mr. Capuano. Yes.
    Mr. Lungren. Is there a specific way to raise the funds in 
this bill?
    Mr. Capuano. Not yet, but I am happy to work with you as we 
get closer.
    Mr. Lungren. But the bill doesn't have a voluntary check-
off or anything----
    Mr. Capuano. No. Not yet. That portion would have to go to 
Ways and Means when we get there.
    Mr. Lungren. And would it be limited--how does a candidate 
qualify?
    Mr. Capuano. Qualified by, first of all, opting in; second 
of all, raising in $100-or-less increments up to $50,000, which 
is about 1,500 contributors. That is how you would qualify.
    Mr. Lungren. So once you do that, you could tap into the 
program for as much as?
    Mr. Capuano. It is about--I have got the exact numbers 
upstairs. It is actually, I think, $575,000. In that range.
    Mr. Lungren. Would that be both primary and general, or 
just the general?
    Mr. Capuano. That would be primary. I believe the total 
general is a few million dollars per candidate, which is 
exactly what you raised. Don't you wish you could raise that 
little amount of money, Mr. McCarthy?
    Mr. Lungren. And who would administer the funds?
    Mr. Capuano. I don't know. Who would administer these 
things? They set up a whole board on the whole thing.
    The Chairman. Ms. Lofgren,
    Ms. Lofgren. Mr. Chairman, if I could just interject 
because points of order need to be timely made, and I did not 
make one because Mr. Lungren did; but if he is dropping that, I 
would like to be given the courtesy of raising a point of 
order.
    The Chairman. Without objection, the gentlewoman is 
recognized.
    Mr. Lungren. I still have time, my time?
    The Chairman. Yes.
    Mr. Lungren. So would a Member be prohibited from raising 
other moneys outside of that initial amount when they 
qualified----
    Mr. Capuano. Once you opt in, yes.
    Mr. Lungren. So your limit is how much?
    Mr. Capuano. The limit is $100 or less contributions. No 
limit on that.
    Mr. Lungren. Oh, so you can continue raising----
    Mr. Capuano. Under those limits, yes. Good luck raising a 
lot of money on $100 or less.
    Mr. Lungren. And that is unlimited and then you qualify for 
the public funds?
    Mr. Capuano. Yes, I believe that is correct.
    Mr. Lungren. Okay. I just want to make clear what this is. 
This is if you have an unlimited amount of funds under $100 
that you raise; right?
    Mr. Capuano. They are not matched.
    Mr. Lungren. Pardon me?
    Mr. Capuano. The match is capped.
    Mr. Lungren. Right. The match is capped but there is no 
limit in the underlying amount under $100; right?
    Mr. Capuano. I believe that is correct.
    Mr. Lungren. So you could raise $2 million under $100 in 
contributions. I realize that is a lot. And then on top of 
that, you could get the public funding. If one party opts in--
in the general election if the Democratic candidate opts in for 
that, does that put any limitations on the Republican candidate 
or vice versa?
    Mr. Capuano. No. Nothing other than the current limits.
    Mr. Lungren. Is it limited to--is the number of parties 
limited?
    Mr. Capuano. No.
    Mr. Lungren. So as long as you qualify under Federal and 
State law, you would then qualify for that?
    Mr. Capuano. You would still have to raise a certain amount 
of money.
    Mr. Lungren. I understand that----
    Mr. Capuano. You have to raise $50,000 in $100 or less 
contributions, which is 1,500 contributors. And if you can do 
that and not be associated with any entity or group, good luck 
to you. Isn't that the American system? Anybody should be able 
to run?
    Mr. Lungren. Okay. Let me ask you this. What about, I call 
it the LaRouche problem?
    Mr. Capuano. How is it a problem? If they can go out and 
raise this kind of money----
    Mr. Lungren. Have you met him?
    Mr. Capuano. Yes, I met him.
    Mr. Lungren. That is a problem.
    Mr. Capuano. I don't see it as a problem at all. I actually 
think you have more problem with the Tea Party right now, not 
the LaRouches, but that is your problem. And my argument is----
    Mr. Lungren. No. No. As I have said before, Mr. LaRouche is 
a Democrat and you are welcome to him.
    Mr. Capuano. If somebody can raise this kind of money in 
these kinds of numbers, they are going to be on the ballot, and 
they should be on the ballot, and you should be concerned. And 
if they are LaRouches or Tea Parties or Whigs or anybody else, 
God bless them.
    Mr. McCarthy. Will the gentleman yield?
    Mr. Lungren. I would be happy to yield to the gentleman 
from California.
    Mr. McCarthy. You stated earlier your concern that the 
money--money from outside the district. Does this put any 
restrictions if a person ran for office and got all the money 
from outside of the State?
    Mr. Capuano. No.
    The Chairman. I would like to recognize the gentlelady for 
a point of order.
    Ms. Lofgren. Mr. Lungren is not finished.
    The Chairman. He is out of time so----
    But I will let you----
    Mr. Lungren. I will yield back my time.
    Ms. Lofgren. Thank you for hearing me on this point of 
order. I actually----
    Mr. Lungren. Mr. Chairman, the point of order is not in 
order.
    Mr. Capuano. Mr. Chairman, if the point of order is not 
in--I understand this bill is not germane and I respect that, 
and I am not going to put anybody in a position of having to 
play procedural games. I am more than happy to withdraw this 
amendment without embarrassing anybody or putting anybody in a 
difficult position. That is not my intention.
    My intention was to make sure people understand that this 
bill, the DISCLOSE bill, is a good bill; but it is not going to 
solve the underlying problem. The only solution to this 
underlying problem is to get us off the money train. And the 
only way to do it, unless somebody has a better idea, is to get 
public financing of campaigns.
    Mr. Lungren. Would the gentleman yield?
    Mr. Capuano. I certainly would.
    Mr. Lungren. I know the gentleman is going to withdraw 
that. I just ask the chairman, is this bill within our 
jurisdiction?
    Mr. Capuano. No.
    Mr. Lungren. The gentleman's bill? Not germane to this bill 
today, but is this within our jurisdiction?
    The Chairman. Yes. It would come back under us, yes.
    Ms. Lofgren. Will the gentleman yield? If I could, I am a 
cosponsor of this bill. We had a hearing in the Election 
Subcommittee. For a variety of reasons, I don't think this is 
the best way to proceed with it. But I do appreciate that you 
are withdrawing it. I agree with it on the substance.
    The Chairman. We already had a hearing on it in our 
committee.
    I understand the gentleman withdraws his amendment?
    Mr. Capuano. Yes, Mr. Chairman.
    The Chairman. Any further amendments?
    Mr. Capuano. Mr. Chairman, I have got another one.
    The Chairman. Mr. Capuano is recognized.
    Mr. Capuano.  Mr. Chairman, amendment No. 2, the 
Shareholder Protection Act, and that bill is not within the 
jurisdiction of this committee.
    Ms. Lofgren.  And I raise a point of order.
    The Chairman. The lady is recognized for a point of order.
    Mr. Capuano. This particular provision is a simple 
response, a direct and simple response to Citizens United, and, 
more importantly it protects shareholders.
    The question always comes--and I have asked members of this 
panel and no one has debated it--who owns the money in a 
corporation? Who owns the corporation? The CEO of the 
corporation, the board of directors of the corporation, or the 
shareholders of the corporation? I have not heard anybody yet 
who argues that shareholders do not own the corporation. So 
therefore the corporate money is their money.
    And the Shareholder Protection bill simply says that if a 
corporation wants to exercise what the court says is the 
corporation's First Amendment rights, so be it; then the people 
whose money it is get to say yes or no. Shareholders get to say 
yes or no. Very simple, very straightforward, doesn't prohibit 
anybody's First Amendment rights, doesn't get involved in any 
of these other things. It is a relatively simple bill, a short 
bill.
    No matter how you measure it, no matter how tightly it is 
printed or anything else, it is a short bill. And I think that 
it is a bill that will actually allow people to make their own 
decisions. The worst thing that can happen, I think in 
campaigns or anything else, is for anybody to spend my money 
for me; and if somebody wants to make a political contribution 
on my behalf, I should have a say in the matter if it is my 
money. And that is all this does. It says shareholders own the 
corporation and they get to say yes or no.
    Mr. Chairman, I yield back the balance of my time.
    Ms. Lofgren. Mr. Chairman, may I be heard on my point of 
order?
    The Chairman. Yes.
    Ms. Lofgren. I actually--as I mentioned, when we had 
hearing in the questions I asked, I think the situation of 
shareholders and their rights is a very serious one, and I am 
very interested in Mr. Capuano's proposal. I also am interested 
in liability issues and the like. However, it is not germane to 
the underlying bill.
    Mr. Capuano is a member of the Financial Services 
Committee. I am a member of the Judiciary Committee. I hope 
that we can pursue some of these other ideas in those 
committees of jurisdiction, but I don't think this amendment is 
germane to the underlying bill and therefore----
    Mr. Capuano. Mr. Chairman, if the gentlelady will yield. 
Again, without trying to put anybody in a box, and also I have 
been told that we are going to be marking this bill up in the 
not-too-distant future in Financial Services. Anyway, I just 
wanted to raise the point. To me I think it is a critical part 
of this whole debate. Disclosure is fine, but if somebody is 
spending somebody else's money, it is never good.
    So with that, Mr. Chairman, with due respect I will 
withdraw my amendment.
    The Chairman. I thank the gentleman.
    Mr. McCarthy. Can I ask you a question before you withdraw?
    Mr. Capuano. Sure.
    Mr. McCarthy. Just a couple. Would the shareholders vote on 
spending a certain dollar amount throughout, or would they have 
to vote by each contribution?
    Mr. Capuano. The bill that we have proposed in Financial 
Services would be one time per year the shareholders would vote 
yes or no on a given amount suggested by the board, like 
everything else. So the board would come out and say, We ask 
you to allow us to spend up to 10 million--pick a number--
whatever the number is----
    Mr. McCarthy. And they can do whatever they want----
    Mr. Capuano. Whatever they want. And the shareholders have 
an up-or-down vote on it.
    Mr. McCarthy. Because it is the shareholders' money.
    Mr. Capuano. Yes.
    Mr. McCarthy. Okay. Taking that same premise, so if a 
shareholder disagrees with how the corporation spends the 
money, you could do one of two things, right? You could fight 
internally or you could sell the share.
    Mr. Capuano. That is right.
    Mr. McCarthy. So, say I am a union employee.
    Mr. Capuano.  Gee, what a surprise.
    Mr. McCarthy. No, I am just--level playing field. And they 
take my money. Is there anything in your bill that has the 
union vote one time a year to decide how much is spent on 
political endeavors?
    Mr. Capuano. Just as a point of information. The gentleman 
should read a whole bunch of cases, starting with Communication 
Workers of America versus Beck and other related cases back to 
the 1960s. The United States Supreme Court has itself said 
repeatedly that union members can opt out of political use of 
their donations, their union dues. It is not a new concept. It 
has been around for a long time. It has gone to the Supreme 
Court numerous times and has been upheld numerous times. So 
union members already have that option to not have their dues 
used for political purposes.
    Mr. McCarthy. So that is the equivalent of selling the 
share; would it not be?
    Mr. Capuano. I don't think so.
    Mr. McCarthy. Not in your interpretation?
    Mr. Capuano. No. I don't think so, no.
    Mr. McCarthy. You are saying they can opt out.
    Mr. Capuano. You are still related to the union. You are 
still getting benefits of the union. You don't have to leave 
the union. Even if you do leave the union, you still get the 
benefits of that. You still have to pay an agency, which has 
been long settled Supreme Court decisions, which I know that 
some people don't agree with, just like some of the decisions 
of the Supreme Court I don't agree with.
    Mr. McCarthy. Let me ask you this question. When I asked 
you earlier that it was the shareholders' money, right?
    Mr. Capuano. Yes.
    Mr. McCarthy. And that is the premise of why you ask that 
the shareholders be able to vote?
    Mr. Capuano. That is right.
    Mr. McCarthy. Is the money that the union contributes, is 
that not their money?
    Mr. Capuano. Yes. It is the union members' money for 
political purposes; that is correct.
    Mr. McCarthy. The same thing as the taxpayers' money--for 
the shareholders' money, I am sorry. So if the shareholder gets 
the power to say, I only want you to spend this much on 
politics, because you are not asking for an individual, who to 
contribute it to, you are just asking how much to spend, why 
wouldn't we empower that union member to be able to have that 
same say of how much to be spent in politics?
    Mr. Capuano. The union member does it in reverse. They are 
allowed to do it in reverse to a total. The union member is not 
allowed to say--under current law, the member is not allowed to 
say, I don't want to contribute to Mike Capuano, but I want to 
contribute to Kevin McCarthy with my union dues. They say 
either I am happy to go and be part of the union and allow the 
union in the normal course of business to make a decision, just 
like the shareholder would be doing. The shareholder would not 
be making a decision on individual contributions. They simply 
say yes or no on that.
    Union members are already entitled to do the exact same 
thing. It is yes, we are in, or no, we are out on political 
activity, and that has been the case since the 1960s.
    Ms. Lofgren. Would the gentleman yield?
    Mr. Capuano. I certainly would.
    Mr. McCarthy. Just to clarify, it is my time.
    Ms. Lofgren. Oh, I am sorry. Will the gentleman yield?
    The Chairman. Just to clarify, everybody has been out of 
time.
    Mr. Capuano. Mr. Chairman, out of respect for some of the 
needs of my colleagues on this panel, I would respectfully 
withdraw my amendment.
    The Chairman. You are withdrawing the amendment for the 
second time. Thank you. I appreciate it.
    Are there any further amendments?
    Mr. Capuano. Mr. Chairman, I have one more. Amendment No. 
4.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Mr. Capuano.
    Mr. Capuano. Mr. Chairman, this is a simple approach. If we 
are going to disclose things on TV ads and other ads, I think 
we should be doing them on radio ads. And in an attempt to 
address some of the concerns that were raised, I think 
legitimate concerns that were raised, not trying to take up too 
much time of a given ad, actually reduce the number of people 
that would have to be identified on an ad to two; not five, not 
42 different CEOs and the like. Simply the top two funders of 
the entity putting the ad there. And, again, it is an attempt 
to be reasonable. Radio ads are shorter. Speech takes longer 
than print. And that is what this amendment does. And with 
that, I----
    The Chairman. I thank the gentleman. Is there any 
additional debate on the amendment to the substitute?
    Mr. Lungren.
    Mr. Lungren. Thank you very much.
    As I understand, is this a new requirement for 
identification on radio ads?
    Mr. Capuano. The current bill does not address radio ads.
    Mr. Lungren. So this would then include radio ads as well 
as TV ads?
    Mr. Capuano. TV ads are already covered with the top five--
--
    Mr. Lungren. No, that is what I mean. As well as TV ads. 
Okay. So you would require the top funder, the top two funders?
    Mr. Capuano. Two funders, correct.
    Mr. Lungren. Now, what about the question of the time 
involved? I thought the chairman said with respect to his 
manager's amendment that somehow there is a variance that is 
allowed if it would be too much time out of a radio ad.
    Mr. Capuano. It would be subject to the same allowance. I 
don't see how two names would really interfere with a 30-second 
ad, but if it did, the FEC would be allowed to waive it, just 
like they would under the current bill for TV ads.
    Mr. Lungren. Okay. Thank you.
    The Chairman. Any additional debate on the amendment? 
Hearing none, the question is on the amendment.
    All those in favor, signify by saying aye.
    Those opposed, no.
    In the opinion of the Chair, the ayes have it.
    Mr. Capuano. Mr. Chairman, just as a point of information, 
I would like it noted that I got one amendment passed and Mr. 
McCarthy got two.
    The Chairman. Noted for the record.
    Mr. McCarthy. But the record also shows he said he was 
going to work on my other amendment on the floor, too.
    Mr. Capuano. I was kidding.
    The Chairman. It is agreed to.
    Mr. Lungren. Mr. Chairman, since I have had no amendments 
adopted, I have one more amendment.
    The Chairman. Taking another shot. The gentleman is 
recognized.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Lungren. What I did with this amendment is--this is 
similar to amendment No. 4 that I had before, where I talked 
about the fact that I wanted to use the FEC regulatory language 
in statutory form so that we would be less confused about 
dealing with the problem of American subsidiaries of foreign 
companies.
    It was pointed out by Mr. Capuano that I had added 
something with respect to the clarification of treatment of 
state-owned companies by foreign nationals, and that was in 
fact not part of the FEC language.
    So what I have done is I have removed that from my 
amendment, so that in essence this amendment--which I have not 
asked for a recorded vote for before, and, to my chagrin, Mr. 
Capuano said I should have--I have now offered without the 
language that I think he questioned, or some on your side 
objected to, because it was further than what the FEC language 
was and there was some question about that would be adding some 
vagueness.
    So, again, this amendment replaces section 102 with a 
prohibition on any foreign national directing or controlling 
political activity by codifying current FEC regulations, and I 
withdrew my expanded definition of ``foreign national'' that 
some on your side objected to.
    The Chairman. I thank the gentleman.
    Is there any additional debate on the amendment?
    Mr. Capuano.
    Mr. Capuano. Mr. Chairman, I respect the gentleman's 
attempt, but he cut off the part that I liked. I liked the 50 
percent part, the part that you cut out. So I am happy to vote 
against this thing.
    The Chairman. A part is really like a little section of 
something.
    Any additional debate on the amendment to the substitute?
    Ms. Lofgren. Mr. Chairman, if I may just say, this is--I am 
not sure and I am not--because it has been redrafted, it has 
just been handed--I really think we ought to study this between 
now and the floor and see--I am taking a look at the section of 
law, and I want to think about how it works. I am not 
necessarily assuming that it is not a good idea. I just don't 
know yet. I just wanted to say that.
    Mr. Lungren. It is difficult--I put something in there that 
Mr. Capuano suggested, and I heard a complaint that that was 
not the FEC language. So I took it out, and now I have 
complaints on the other side. But I will think about it and 
work with the other side to see if we might be able to resolve 
this one. Thank you.
    The Chairman. No more debate?
    Mr. Lungren. Mr. Chairman, could I ask unanimous consent to 
enter into the record a letter by eight former commissioners of 
the FEC where they detail a number of grave concerns they have 
regarding the legislation before us?
    The Chairman. Without objection.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Lungren. Mr. Chairman, I ask unanimous consent to enter 
into the record a letter of opposition to the original bill 
sent to this committee by over 85 organizations representing a 
wide spectrum of organizations representing businesses.
    The Chairman. Without objection, so ordered.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. If not, the question is on the amendment.
    All those in favor, say aye.
    All those opposed, say no.
    In the opinion--you voted against your own amendment.
    In the opinion of the Chair, the noes have it.
    Mr. Lungren. Oh, my amendment. I thought you----
    Ms. Lofgren. Our staffs ought to talk about this.
    The Chairman. The question is on the amendment.
    All those in favor, say aye.
    All those opposed, say no.
    In the opinion of the Chair the noes have it. The noes have 
it and the amendment is not agreed to.
    Are there any additional amendments?
    If there are no additional amendments, the question is now 
on agreeing to the amendment in the nature of a substitute, as 
amended.
    All those in favor, say aye. Those opposed, say no.
    In the opinion of the Chair, the ayes have it and the 
amendment, as awarded, is agreed to.
    Mr. Lungren. I ask for a roll call.
    The Chairman. Will the Clerk call the roll?
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. Aye.
    The Clerk. Mr. Capuano.
    Mr. Capuano. Aye.
    The Clerk. Mr. Gonzalez.
    [No response.]
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. Aye.
    The Clerk. Mr. Davis of Alabama.
    Mr. Davis of Alabama. Aye.
    The Clerk. Mr. Lungren.
    Mr. Lungren. No.
    The Clerk. Mr. McCarthy.
    Mr. McCarthy. No.
    The Clerk. Mr. Harper.
    Mr. Harper. No.
    The Clerk. Mr. Brady.
    The Chairman. Aye.
    The Chairman. The ayes are five, the nays are no--in the 
opinion of the Chair, the ayes have it. And the amendment, as 
awarded to the amendment, is agreed to.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chair now moves to report H.R. 5175, as amended, 
favorably to the House.
    All those in favor, say aye.
    Those opposed, no.
    In the opinion of the Chair, the ayes have it. And the ayes 
have it.
    The bill now, as amended, is reported favorably to the 
House. Without objection, a motion to reconsider is laid on the 
table.
    Members will have 2 additional days provided by the House 
rules to file views.
    The Chairman. Without objection, the staff may make 
technical and conforming changes to the legislation considered 
today.
    The committee now stands adjourned. I thank all of you, and 
have a good flight back, a good travel back, and a good 
weekend. Thank you.
    [Whereupon, at 5:45 p.m., the committee was adjourned.]

</pre></body></html>
